No. 20-______

In the Supreme Court of the United States
____________

KEVIN M. GUSKIEWICZ,
in his official capacity as Chancellor of The University of
North Carolina at Chapel Hill, et al.,
Petitioners,
v.
DTH MEDIA CORPORATION, et al.,
Respondents.
______________

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NORTH CAROLINA
______________

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
______________

JOSHUA H. STEIN
Attorney General of North Carolina
Ryan Y. Park
Solicitor General
Sarah G. Boyce
Deputy Solicitor General
Counsel of Record
Nicholas S. Brod
Assistant Solicitor General
Stephanie A. Brennan
Special Deputy Attorney General
North Carolina Department of Justice
Post Office Box 629
Raleigh, NC 27602
(919) 716-6400
sboyce@ncdoj.gov

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
TABLE OF CONTENTS
Opinion of the North Carolina Supreme Court,
issued May 1, 2020 ...............................................1a
Opinion of the North Carolina Court of Appeals,
issued April 17, 2018 ..........................................44a
Order and Final Judgment of the Wake County
Superior Court, issued May 9, 2017 ...................73a
Constitutional Provisions, Statutes, and Regulations
Involved ...............................................................83a
U.S. Const. art. VI, cl. 2 ......................................83a
20 U.S.C. § 1232g(b)(6)(B) ..................................84a
N.C. Gen. Stat. § 132-1(b)...................................86a
34 C.F.R. § 99.31 .................................................87a
Affidavits in Support of Defendants’ Brief in
Opposition to Plaintiffs’ Request for Records ....90a
Affidavit of Christiane Hurt ...............................90a
Affidavit of Katherine B. Nolan .........................99a
Affidavit of Ew Quimbaya-Winship .................116a
Affidavit of Felicia Washington........................128a

1a
IN THE SUPREME COURT OF NORTH CAROLINA
No. 142PA18
Filed 1 May 2020
DTH
MEDIA
CORPORATION,
CAPITOL
BROADCASTING
COMPANY,
INC.,
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY, and THE DURHAM HERALD
COMPANY
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill
On discretionary review pursuant to N.C.G.S.
§ 7A-31 of the decision of a unanimous panel of the
Court of Appeals, 259 N.C. App. 61, 816 S.E.2d 518
(2018), reversing a judgment entered on 9 May 2017
by Judge Allen Baddour in Superior Court, Wake
County. Heard in the Supreme Court on 27 August
2019.
Stevens Martin Vaughn & Tadych, PLLC, by Hugh
Stevens and Michael J. Tadych, for plaintiffsappellees.
Joshua H. Stein, Attorney General, by Stephanie A.
Brennan, Special Deputy Attorney General, and

2a
Matthew Burke, Solicitor
defendants-appellants.

General

Fellow,

for

J.D. Jones Law, PLLC, by Jonathan D. Jones, for
Student Press Law Center and Brechner Center for
Freedom of Information, amici curiae.
Fox Rothschild, LLP, by Troy D. Shelton for Victims
Rights Law Center, N.C. Coalition Against Sexual
Assault, National Alliance to End Sexual Violence,
National Network to End Domestic Violence, and the
N.C. Coalition Against Domestic Violence, amici
curiae.
MORGAN, Justice.
This matter presents questions which require this
Court to interpret the federal Family Educational
Rights and Privacy Act (FERPA) and the North
Carolina Public Records Act (the Public Records Act)
in order to determine whether officials of The
University of North Carolina at Chapel Hill (UNC-CH
or University) are required to release, as public
records, disciplinary records of its students who have
been found to have violated UNC-CH’s sexual assault
policy. The Court of Appeals unanimously determined
that such records are subject to mandatory disclosure.
We affirm.
Factual and Procedural Background
This case arises out of a dispute between various
news organizations and officials of UNC-CH’s
administration. Plaintiffs DTH Media Corporation;

3a
Capitol Broadcasting Company, Inc.; The Charlotte
Observer Publishing Company; and The Durham
Herald Company (collectively, plaintiffs) are news
organizations based in North Carolina which
regularly report on matters regarding UNC-CH.
Defendants are Carol L. Folt, the former Chancellor
of UNC-CH and Gavin Young, the Senior Director of
Public Records of UNC-CH (collectively, defendants).
Plaintiffs brought this legal action against defendants
in the defendants’ official capacities for alleged
violations of the Public Records Act. The Act was
enacted by the North Carolina General Assembly in
order to make public records readily available
because they “are the property of the people.” See
N.C.G.S. §§ 132-1 to -11 (2017). Defendants contend
that they are prohibited from complying with the
Public Records Act in light of applicable provisions of
FERPA. The parties stipulated to the following facts,
which were adopted by the lower courts and utilized
in their respective determinations in the controversy
prior to this Court’s involvement.
Since 2014, UNC-CH has adhered to its
comprehensive “Policy on Prohibited Discrimination,
Harassment and Related Misconduct” that includes
prohibitions on, and potential punishments for,
sexual-based and gender-based harassment and
violence. In a letter dated 30 September 2016,
plaintiffs requested, pursuant to the Public Records
Act, “copies of all public records made or received by
[UNC-CH] in connection with a person having been
found responsible for rape, sexual assault or any
related or lesser included sexual misconduct by

4a
[UNC-CH’s] Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office.” The letter was addressed to officials of UNCCH, including defendant Young. In a letter dated 28
October 2016 and signed by Joel G. Curran, UNCCH’s Vice Chancellor for Communications and Public
Affairs, UNC-CH expressly denied plaintiffs’ request.
In his letter, Vice Chancellor Curran asserted that
the records requested by plaintiffs were “educational
records” as defined by FERPA and were thus
“protected from disclosure by FERPA.”
After subsequent communications between the
parties, including mediation proceedings which were
conducted pursuant to N.C.G.S. § 78-38.3E, plaintiffs
narrowed the scope of their request for records which
were held in the custody of UNC-CH to: “(a) the name
of any person who, since January 1, 2007, has been
found responsible for rape, sexual assault or any
related or lesser included sexual misconduct by the
[UNC-CH] Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office; (b) the date and nature of each violation for
which each such person was found responsible; and
(c) the sanction[ ] imposed on each such person for
each such violation.” UNC-CH denied plaintiffs’
revised, more limited request on 11 November 2016
during an in-person meeting, and further reiterated
to plaintiffs on 18 November 2016 that the University
would continue to decline plaintiffs’ request for the
records at issue pursuant to FERPA.

5a
On 21 November 2016, following the continued
denial of their request, plaintiffs filed a complaint and
sought an order for defendants to show cause under
the Public Records Act and the North Carolina
Declaratory Judgments Act. See N.C.G.S. §§ 1-253 to
-267. Plaintiffs sought in relevant part: (1) a
preliminary order compelling defendants to appear
and produce the records at issue; (2) an order
declaring that the requested records are public
records as defined by N.C.G.S. § 132-1; and (3) an
order compelling defendants to permit the inspection
and copying of these records, pursuant to N.C.G.S.
§ 132-9(a) in their capacity as public records.
Defendants filed their answer to plaintiffs’
complaint and petition for the show cause order on 21
December 2016, claiming that “FERPA, a federal law
that preempts the Public Records Act, strictly
prohibits” the disclosure of the records at issue. More
specifically, defendants asserted UNC-CH’s position
that
[u]nder FERPA, the University has reasonably
exercised its discretion not to release this
information, because doing so would breach the
confidentiality of the University’s Title IX
process and would interfere with and
undermine that process. More specifically,
disclosure of this information would deter
victims from coming forward and participating
in the University’s Title IX process, thus
preventing victims from receiving the help and
support available to them through the

6a
University’s Title IX process and preventing
the University from learning about potential
serial perpetrators, which would undermine
the safety of the campus community.
Additionally, disclosure of this information
would permit the identification of victims by
members of the campus community who know
their relationship to the responsible person and
by providing the responsible student
motivation to reveal the name of the victim,
which would lead to victims being retraumatized. Such disclosure would deter the
participation of witnesses and further impede
the University’s ability to render a fair, just,
and informed determination, and jeopardize
the safety of students found responsible during
the Title IX process by placing them at risk for
retribution.
Following a hearing on plaintiffs’ request for
declaratory judgment which was conducted on 6 April
2017, the Superior Court, Wake County entered an
order and final judgment filed on 9 May 2017 which,
inter alia, denied plaintiffs’ request for a declaratory
judgment in determining that defendants were not
required to produce the student records requested by
plaintiffs. 1 In reaching its decision, the trial court
concluded that the Public Records Act does not compel
the release of public records where an exception is
Both parties agree that the matter concerning UNC-CH
employees’ records which is addressed in the trial court’s order
and final judgment is not at issue on appeal.
1

7a
“otherwise specifically provided by law,” and agreed
with defendants’ position as expressed in the trial
court’s order and final judgment, that
[i]n 20 U.S.C. § 1232(b)(6), FERPA grants the
University the discretion to determine whether
to release (1) the name of any student found
‘responsible’ under University policy of a ‘crime
of violence’ or ‘nonforcible sex offense,’ (2) the
violation, and (3) the sanction imposed. The
University may disclose (but is not required to
disclose) this information only if the University
determines that the student violated the
University’s rules or policies.
In applying principles enunciated in the United
States Constitution and pertinent cases of the
Supreme Court of the United States, the trial court
entered conclusions of law that the doctrines of both
field preemption and conflict preemption operate to
implicitly preempt, by force of federal law, any
required disclosure by North Carolina’s Public
Records Act of the requested records. Plaintiffs
appealed the portion of the trial court’s order and final
judgment relating to the denial of access to the
student records in dispute to the Court of Appeals.
In addressing the respective arguments of
plaintiffs and defendants, the lower appellate court’s
analysis of the questions presented for resolution
included the following subjects: the Public Records
Act enacted by the North Carolina General Assembly,
the Family Educational Rights and Privacy Act
enacted by the United States Congress, the

8a
interaction between this state law and this federal
law regarding their individual and joint impacts on
the present case, and principles of federal
preemption. In an effort to promote efficiency and to
diminish repetition, we shall integrate the parties’
respective arguments, the Court of Appeals’
determinations, and the Court’s conclusions
throughout our opinion’s overlapping treatment of
them.
Analysis
A. The legislative enactments
Plaintiffs initially asked defendants to provide
copies of all public records made or received by UNCCH in connection with any person having been found
responsible for rape, sexual assault, or any related or
lesser-included sexual conduct by UNC-CH’s Honor
Court, the Committee on Student Conduct, or the
Equal Opportunity and Compliance Office. This
request was made pursuant to the Public Records Act,
which is codified in the North Carolina General
Statutes in §§ 132-1 through 132-11. The request was
subsequently narrowed to encompass records in the
custody of UNC-CH that included (a) the name of any
person who, since January 1, 2007, had been found
responsible for rape, sexual assault, or any related or
lesser-included sexual misconduct by the UNC-CH
Honor Court, the Committee on Student Conduct, or
the Equal Opportunity and Compliance Office; (b) the
date and nature of each violation for which each such
person was found responsible; and (c) the sanctions
imposed on each such person for each such violation.

9a
In its totality, N.C.G.S. § 132-1 reads as follows:
(a) “Public record” or “public records” shall
mean all documents, papers, letters, maps,
books, photographs, films, sound recordings,
magnetic or other tapes, electronic dataprocessing records, artifacts, or other
documentary material, regardless of physical
form or characteristics, made or received
pursuant to law or ordinance in connection
with the transaction of public business by any
agency of North Carolina government or its
subdivisions. Agency of North Carolina
government or its subdivisions shall mean and
include every public office, public officer or
official (State or local, elected or appointed),
institution, board, commission, bureau,
council, department, authority or other unit of
government of the State or of any county, unit,
special district or other political subdivision of
government.
(b) The public records and public information
compiled by the agencies of North Carolina
government or its subdivisions are the property
of the people. Therefore, it is the policy of this
State that the people may obtain copies of their
public records and public information free or at
minimal cost unless otherwise specifically
provided by law. As used herein, “minimal cost”
shall mean the actual cost of reproducing the
public record or public information.
N.C.G.S. § 132-9(a) states, in its entirety:

10a
Any person who is denied access to public
records for purposes of inspection and
examination, or who is denied copies of public
records, may apply to the appropriate division
of the General Court of Justice for an order
compelling disclosure or copying, and the court
shall have jurisdiction to issue such orders if
the person has complied with G.S. 7A-38.3E.2
Actions brought pursuant to this section shall
be set down for immediate hearing, and
subsequent proceedings in such actions shall
be accorded priority by the trial and appellate
courts.
In declining plaintiffs’ request for the identified
records in its custody, UNC-CH interpreted the
Family Educational Rights and Privacy Act—codified
at 20 United States Code Section 1232g—to permit
UNC-CH the ability to deny access to the records at
issue, based upon its obligation to comply with Title
IX of the Education Amendments of 1972, found in 20
U.S.C. §§ 1681-88. Pertinent provisions of FERPA
regarding the parties’ respective positions, the trial
court’s order and final judgment, the Court of Appeals
decision, and this Court’s determination include
salient segments of:


20 U.S.C. § 1232g(a)(4)(A): “For the purposes of
this section, the term ‘education records’ means
. . . those records, files, documents, and other

N.C.G.S. § 7A-38.3E governs the mediation of public records
disputes.
2

11a
materials which[ ] (i) contain information
directly related to a student; and (ii) are
maintained by an educational agency or
institution or by a person acting for such
agency or institution”;


20 U.S.C. § 1232g(b)(1): “No funds shall be
made available under any applicable program
to any educational agency or institution which
has a policy or practice of permitting the
release of education records (or personally
identifiable information contained therein
other than directory information . . .) of
students without the written consent of their
parents . . .”;



20 U.S.C. § 1232g(b)(2): “No funds shall be
made available under any applicable program
to any educational agency or institution which
has a policy or practice of releasing, or
providing access to, any personally identifiable
information in education records other than
directory information . . . except . . . such
information is furnished in compliance with
judicial order . . . upon condition that parents
and the students are notified of all such orders
. . . in advance of the compliance therewith by
the educational institution or agency . . .”;



20 U.S.C. § 1232g(b)(6)(B): “Nothing in this
section shall be construed to prohibit an
institution of postsecondary education from
disclosing the final results of any disciplinary
proceeding conducted by such institution

12a
against a student who is an alleged perpetrator
of any crime of violence . . . or a nonforcible sex
offense, if the institution determines as a result
of that disciplinary proceeding that the student
committed a violation of the institution’s rules
or policies with respect to such crime or
offense”;


20 U.S.C. § 1232g(b)(6)(C): “For the purpose of
this paragraph, the final results of any
disciplinary proceeding[ ] (i) shall include only
the name of the student, the violation
committed, and any sanction imposed by the
institution on that student; and (ii) may
include the name of any other student, such as
a victim or witness, only with the written
consent of that other student”; and



20 U.S.C § 1681(a): “No person in the United
States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of,
or be subjected to discrimination under any
education program or activity receiving
Federal financial assistance . . . .”

B. Consideration and application of the Public
Records Act and the Family Educational
Rights and Privacy Act
This Court reviews issues of statutory
interpretation de novo. “The principal goal of
statutory construction is to accomplish the legislative
intent.” Lenox, Inc. v. Tolson, 353 N.C. 659, 664, 548
S.E.2d 513, 517 (2001) (citing Polaroid Corp. v.

13a
Offerman, 349 N.C. 290, 297, 507 S.E.2d 284, 290
(1998)). “The cardinal principle of statutory
construction is that the intent of the legislature is
controlling. In ascertaining the legislative intent
courts should consider the language of the statute, the
spirit of the statute, and what it seeks to accomplish.”
State ex rel. Util. Comm’n v. Public Staff, 309 N.C.
195, 210, 306 S.E.2d 435, 443-44 (1983) (citations
omitted). “When construing legislative provisions,
this Court looks first to the plain meaning of the
words of the statute itself[.]” State v. Ward, 364 N.C.
157, 160, 694 S.E.2d 729, 731 (2010). “When multiple
statutes address a single matter or subject, they must
be construed together, in pari materia, to determine
the legislature’s intent.” Carter-Hubbard Publ’g Co.,
Inc. v. WRMC Hosp. Operating Corp., 178 N.C. App.
621, 624, 633 S.E.2d 682, 684 (2006), aff’d, 361 N.C.
233, 641 S.E.2d 301 (2007). “Statutes in pari materia
must be harmonized, ‘to give effect, if possible, to all
provisions without destroying the meaning of the
statutes involved.’” Id. (citation omitted). As we said
in Empire Power Co. v. N.C. Dept. of E.H.N.R., 337
N.C. 569, 447 S.E.2d 768 (1994), a case upon which
both parties rely to support their respective views
here regarding statutory construction and its in pari
materia component:
as in any area of law, the primary function of a
court is to ensure that the purpose of the
Legislature in enacting the law, sometimes
referred to as legislative intent, is
accomplished . . . We should be guided by the
rules of construction that statutes in pari

14a
materia, and all parts thereof, should be
construed together and compared with each
other. Such statutes should be reconciled with
each other when possible.
Id. at 591, 447 S.E.2d at 781.
In the present case, the state’s legislative body—
the North Carolina General Assembly—has clearly
expressed its intent through the Public Records Act to
make public records readily accessible as “the
property of the people,” as described in N.C.G.S.
§ 132-1(b). There is no dispute between plaintiffs and
defendants before this Court that the student
disciplinary records meet the definition of “public
records” under N.C.G.S. § 132-1, that UNC-CH comes
within the purview of the Public Records Act, and that
said records are within the custody and control of
UNC-CH. The Public Records Act “affords the public
a broad right of access to records in the possession of
public agencies and their officials.” Times-News
Publ’g Co. v. State of N.C., 124 N.C. App. 175, 177,
476 S.E.2d 450, 451-52 (1996) disc. review denied, 345
N.C. 645, 483 S.E.2d 717 (1997). The Act is intended
to be liberally construed to ensure that governmental
records be open and made available to the public,
subject only to a few limited exceptions. The Public
Records Act thus allows access to all public records in
an agency’s possession “unless either the agency or
the record is specifically exempted from the statute’s
mandate.” Times-News, 124 N.C. App. at 177, 476
S.E.2d at 452 (emphasis added). “Exceptions and
exemptions to the Public Records Act must be

15a
construed narrowly.” Carter-Hubbard Publ’g Co., 178
N.C. App. at 624, 633 S.E.2d at 684.
As for the Family Educational Rights and Privacy
Act, the federal legislative body—the United States
Congress—has clearly expressed its intent through
FERPA that the ready accessibility of education
records exhibited by an “educational agency or
institution which has a policy or practice of
permitting the release of education records (or
personally identifiable information contained therein
other than directory information . . .) of students
without the written consent of their parents . . .” shall
result in “[n]o funds . . . be[ing] made available under
any applicable program” to such an educational
agency or institution, pursuant to 20 U.S.C.
§ 1232g(b)(1). Just as the student disciplinary records
at issue in the instant case are considered to be
“public records” under the state’s Public Records Act,
they are also considered to be “education records”
under FERPA; just as UNC-CH is deemed to be an
“agency of North Carolina government or its
subdivisions” under the Public Records Act, it is also
deemed to be an “educational agency or institution”
under FERPA.
Defendants have chosen to construe FERPA in
such a manner that they have considered UNC-CH to
be prohibited “from disclosing ‘education records,’
including records related to sexual assault
investigations and adjudications governed by Title
IX.” Regarding “campus disciplinary adjudications of
sexual assault,” UNC-CH opines that “FERPA

16a
prohibits the disclosure of education records but
grants universities discretion to determine whether
to disclose three items of information: the name of the
responsible student, the violation, and the sanction
imposed.” In light of its construction of FERPA and
this federal law’s perceived concomitant relationship
with Title IX as embodied in 20 U.S.C. § 1681(a), et
seq, UNC-CH assumes the posture as to the release of
the student disciplinary records which are the focus
of this legal controversy, that “the University has
exercised its discretion and has declined to disclose
this information because the University has
determined that the release of this information would
lead to the identification of victims, jeopardize the
safety of the University’s students, violate student
privacy, and undermine the University’s efforts to
comply with Title IX.”
Defendants’ justification for its interpretation of
FERPA in this subject matter area is premised on its
application of FERPA’s provision of 20 U.S.C.
§ 1232g(b)(6)(B), from which it is surmised that UNCCH has the discretion to determine whether to release
information about a student disciplinary proceeding
outcome, and FERPA’s provision of 20 U.S.C.
§ 1232g(b)(6)(C)(i), which limits the divulgence of “the
final results of any disciplinary proceeding” to “the
name of the student, the violation committed, and any
sanction imposed by the institution or that student
. . . .” Defendants discern that the phrase contained in
20 U.S.C. § 1232g(b)(6)(B), “if the institution
determines as a result of that disciplinary proceeding
that the student committed a violation of the

17a
institution’s rules or policies with respect to such
crime or offense” (emphasis added) impliedly cloaks
UNC-CH with the discretionary authority to
determine whether to release the outcome of a
student disciplinary proceeding in light of the
introductory portion of the provision that “[n]othing
in this section shall be construed to prohibit an
institution of postsecondary education from disclosing
the final results of any disciplinary proceeding
conducted by such institution against a student who
is an alleged perpetrator of any crime of violence . . .
or a nonforcible sex offense . . . .” It is compelling in
light of the Court’s duty to observe and to implement
the aforementioned canons of statutory construction,
that there is no express provision in FERPA that
reposes the authority in UNC-CH to exercise the
discretion that it purports to have. On the other hand,
plaintiffs assert that there is no conflict between the
state’s Public Records Act and the federal law,
FERPA, that the Public Records Act and its
underlying legislative intent support liberal access to
the records at issue here, and that the Court of
Appeals is correct in its determination that the two
legislative enactments which govern these records
can and should be construed in pari materia so as to
afford plaintiffs the access to the student disciplinary
records which is sought.
We conclude that the Court of Appeals correctly
held that 20 U.S.C. § 1232g(b)(6)(B) did not grant
implied discretion to UNC-CH to determine whether
to release the results of a student disciplinary
proceeding emanating from rape, sexual assault, or

18a
sexual misconduct charges in absence of language
expressly granting such discretion. We also note that
the lower appellate court properly recognized that
“[p]laintiffs’ records request is limited to students
who UNC-CH has already expressly determined to
have engaged in such misconduct, and the records of
which are expressly subject to disclosure under
FERPA.” DTH v. Folt, 259 N.C. App. at 69, 816 S.E.2d
at 524 (citing 20 U.S.C. § 1232g(b)(6)(B)). Since
FERPA contains no such language, but instead
specifies that the categories of records sought here are
public records subject to disclosure—“Nothing in this
section shall be construed to prohibit an institution of
postsecondary education from disclosing . . .”—we see
no conflict between the federal statute and the state
Public Records Act. This North Carolina law has been
interpreted consistently by our state courts as
intended for liberal construction affording ready
access to public records, subject to limited exceptions.
See Carter-Hubbard Publ’g Co., 178 N.C. App. at 624,
633 S.E.2d at 684. Accordingly, we conclude, as did
the Court of Appeals, that defendants’ contended
interpretation of the two statutes “conflicts with both
the Public Records Act’s mandatory disclosure
requirements and the plain meaning of FERPA’s
§ 1232g(b)(6)(B), which allows disclosure.” Id. at 7071, 816 S.E.2d at 525. This result reconciles and
harmonizes the Public Records Act and the Family
Educational Rights and Privacy Act, while preserving
the integrity of the well-established doctrines which
guide proper statutory construction. It also reinforces
that the Public Records Act may be available to
compel disclosure through judicial process if

19a
necessary, in the face of a denial of access to such
records.
Unfortunately, the dissent subscribes to UNCCH’s depiction of the University’s discretion “to
produce the records at issue upon request by a third
party if it chooses to do so in the exercise of its
independent judgment.” In embracing the position of
UNC-CH that the institution possesses such
pervasive discretion in light of the federal law, the
dissent strives to justify its acceptance of this
representation by combining the open-ended, nonprohibitive beginning phrase of 20 U.S.C.
§ 1232g(b)(6)(B), “Nothing in this section shall be
construed to prohibit an institution of postsecondary
education from disclosing the final results of any
disciplinary proceeding conducted by such institution
against a student . . .” (emphasis added) with the
permissive introductory language of 34 C.F.R.
§ 99.31(a), “An educational agency or institution may
disclose personally identifiable information from an
education record of a student . . .” (emphasis added)
so as to allow this tandem of federal law provisions to
operate as though the state’s Public Records Act does
not exist. Indeed, it is a fairly elementary deduction,
in neatly configuring these two separate segments of
federal enactments into the single determinant which
the dissent declares, that “Nothing in this section [20
U.S.C. § 1232g(b)(6)(B)] shall be construed to prohibit
an institution of postsecondary education from
disclosing the final results of any disciplinary
proceeding conducted by such institution against a
student . . . [such that] [a]n educational agency or

20a
institution may disclose personally identifiable
information from an education record of a student
. . . .” We agree that, standing alone, a postsecondary
educational institution possesses such discretion to
disclose. However, when such a postsecondary
educational institution is a public postsecondary
educational institution such as UNC-CH, operating
as an undisputed “agency of North Carolina” under
the Public Records Act and therefore subject to
comply with requests for public records when asserted
under N.C.G.S. § 132-1, then “[n]othing in this section
[20 U.S.C. § 1232g(b)(6)(B)] shall be construed to
prohibit an institution of postsecondary education
from disclosing the final results of any disciplinary
proceeding conducted by such institution against a
student.”
Therefore, in properly applying the foundational
principles of statutory construction so as to reconcile
multiple legislative enactments in an effort to
harmonize their joint and mutual operation, the
established methodology to be applied here would be
an examination, in the first instance, of the state law’s
mandatory Public Records Act provision and the
federal law’s permissive Code of Federal Regulations
language which supplements FERPA’s open-ended
and non-prohibitive language, instead of the dissent’s
employment of the erroneous methodology of initially
combining the two federal provisions, thus developing
in a vacuum the flawed conclusion consistent with
UNC-CH’s view that the University commands
discretion over the release of the public records, and
only then secondarily considering the operation of the

21a
Public Records Act after having prematurely
succumbed to the conclusions that “a university has
the authority to produce the records at issue upon
request by a third party if it chooses to do so in the
exercise of its independent judgment” and “the
doctrine of conflict preemption is directly applicable”
which would preclude the operation of the Public
Records Act in the present case. Plaintiffs submitted
their request for the records at issue to the University
pursuant to the Public Records Act because of the
educational institution’s status as an “agency of
North Carolina.” It is therefore appropriate, due to
the mandatory nature of the state law and the liberal
construction which our state courts have given it, to
look initially at the application of the Public Records
Act in light of plaintiffs’ request, then assess whether
there are any other legislative provisions of any sort
which present potential conflict with the operation of
the Public Records Act, and then implement the
established principles of statutory construction to
reconcile such provisions. See Times-News, 124 N.C.
App. at 177, 476 S.E.2d at 452 (The Public Records
Act allows access to all public records in an agency’s
possession “unless either the agency or the record is
specifically exempted from the statute’s mandate.”
(emphasis added)). In the present case, however, the
dissent elects to ignore the logical inception of the
analysis by vaulting the state’s Public Records Act,
grasping the federal nature of FERPA and the cited
provision from the Code of Federal Regulations, and
concluding that an opening assessment of the
applicability of the state law upon which plaintiffs’
records request is expressly premised leads to a “look

22a
to North Carolina law to determine congressional
intent.” The dissent’s depiction and conclusion are
both inaccurate. This defective approach by the
dissent miscalculates the authority of 20 U.S.C.
§ 1232g(b)(6)(B) and 34 C.F.R. § 99.31 in the face of
N.C.G.S. § 132-1, by erroneously elevating the
authority of the federal law’s application here while
wrongfully subjugating the authority of the state
law’s express mandates which require that the public
records at issue be released in the dearth of any
federal law express mandates which require that
these public records be withheld.
Consistent with the rule of statutory construction
to regard the plain meaning of the words of a statute,
20 U.S.C. § 1232g(b)(6)(C) allows only the disclosure
of the name of the student, the violation committed,
and any sanction imposed by the institution on that
student upon the release of the final results of any
disciplinary proceeding. We agree with the Court of
Appeals that the dates of offenses which were
requested by plaintiffs pursuant to the Public Records
Act are not subject to disclosure under FERPA;
therefore, UNC-CH is only required to disclose to
plaintiffs, pursuant to the operation of the Public
Records Act, the name of the student, the violation
committed, and any sanction imposed by UNC-CH on
that student upon the release of the final results of
any disciplinary proceeding.

23a
C. Examination of the federal preemption
doctrine
Defendants invoke the doctrine of federal
preemption in contending that “[e]ven if the [state’s]
Public Records Act mandated disclosure, FERPA
would
preempt
the
Act
through
conflict
preemption[,]” and “FERPA also preempts the Public
Records Act because mandating disclosure frustrates
the purposes of federal law, which allocates to the
University the ability to decide whether disclosure
best promotes the prevention of sexual assaults and
misconduct on a campus.” Additionally, defendants
posit that “FERPA’s discretion also conflicts with the
Public Records Act’s purported disclosure mandate.”
These federal preemption theories, which are posited
by defendants, are all based on the faulty premise
that UNC-CH has the discretion to determine
whether to release the final results of any student
disciplinary proceeding—a postulation which we have
already nullified in our earlier analysis. While
defendants claim that “[c]onflict preemption applies
because compliance with both FERPA and the Public
Records Act is impossible here,” we have already
determined in this case that such compliance is
possible. Although defendants argue that “FERPA
and the Public Records Act conflict because the
University cannot both exercise discretion about
releasing information and be forced to release records
containing that information,” we have heretofore
established in this case that the two Acts do not
conflict under these circumstances as well as held in
this case that UNC-CH does not have the discretion

24a
regarding the release of the information at issue.
Nonetheless, since our learned colleagues who are in
the dissent have addressed their view of the role of
the doctrine of federal preemption in this case and
since the lower appellate court addressed the subject
of the applicability of the federal preemption doctrine
in notable detail in its opinion, we elect to examine
the principle to a warranted degree.
Generally, if a state law conflicts with a federal
law that regulates the same conduct, the federal law
prevails under the doctrine of preemption. “A
reviewing court confronting this question begins its
analysis with a presumption against federal
preemption.” State ex rel. Utilities Comm’n v.
Carolina Power & Light Co., 359 N.C. 516, 525, 614
S.E.2d 281, 287 (2005); see also Hillsborough Cty. v.
Automated Med. Labs., Inc., 471 U.S. 707, 715, 105 S.
Ct. 2371, 85 L.Ed.2d 714 (1985). The presumption is
grounded in the fact that a finding of federal
preemption intrudes upon and diminishes the
sovereignty accorded to states under our federal
system. Indeed, in Wyeth v. Levine, the United States
Supreme Court explained that “[i]n all [preemption]
cases, and particularly those in which Congress has
‘legislated . . . in a field which the States have
traditionally occupied’ . . . we ‘start with the
assumption that the historic police powers of the
States were not to be superseded by the Federal Act
unless that was the clear and manifest purpose of
Congress.’” 555 U.S. 555, 565, 129 S. Ct. 1187, 173
L.Ed.2d 51 (2009) (alterations in original) (quoting
Medtronic, Inc. v. Lohr, 518 U.S. 470, 485, 116 S. Ct.

25a
2240, 135 L.Ed.2d 700 (1996)). The exercise of such
authority by the United States Congress, where
shown clearly and manifestly by the federal
legislative body, is known as “express preemption”;
however, Congress may also achieve such a result
through “implicit preemption.” Congress may
consequently preempt, i.e. invalidate, a state law
through federal legislation. It may do so through
express language in a statute. But even where a
statute does not refer expressly to preemption,
Congress may implicitly preempt a state law, rule, or
other state action. Oneok, Inc. v. Learjet, Inc., 575
U.S. 373, 376, 135 S. Ct. 1591, 191 L.Ed.2d 511 (2015).
Congress may implement implicit preemption either
through conflict or field preemption. Id. “Conflict
preemption exists where ‘compliance with both state
and federal law is impossible’ or where ‘the state law
stands as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress.’” Id. at 377, 135 S. Ct. 1591 (citing
California v. ARC America Corp., 490 U.S. 93, 100-01,
109 S. Ct. 1661, 104 L.Ed.2d 86 (1989)). As to field
preemption, “Congress has forbidden the State to take
action in the field that the federal statute preempts.”
Id.
The Court of Appeals, in the present case,
considered both types of the conflict preemption
aspect of the federal preemption doctrine and
determined that there was no conflict between the
federal law, FERPA, and the state’s Public Records
Act, because compliance by UNC-CH with both of
them is possible. As the lower tribunal noted in

26a
considering the first type, “[d]efendants would not
violate § 1232g(b)(6)(B) by disclosing and releasing
the records Plaintiffs requested in order to comply
with the Public Records Act.” DTH v. Folt, 259 N.C.
App. at 74, 816 S.E.2d at 527. With regard to the
second type, the Court of Appeals reasoned that “the
Public Records Act disclosure requirements do not
‘stand as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress,’” in that “[t]he plain text of § 1232g(b)(6)(B)
permits Defendants’ disclosure of the limited
information specifically listed therein.” Id. (quoting
Oneok, 575 U.S. at 377, 135 S. Ct. 1591). Although in
our view the Court of Appeals analyzed conflict
preemption unnecessarily as explained above, it
nonetheless applied the doctrine correctly in general,
and Oneok in particular.
The dissent unequivocally views FERPA as
preventing the operation of the Public Records Act in
the present case, opining that “[a] federal law that
grants discretion is fundamentally irreconcilable with
a state law that seeks to override that discretion.” In
this analytical exercise, the dissent again begins with
the fundamental misstep that the FERPA provision
of 20 U.S.C. § 1232g(b)(6)(B) is buttressed by 34
C.F.R. § 99.31 so as to establish a federally
entrenched discretion for a public postsecondary
educational institution like UNC-CH which is
mandatorily subject to the Public Records Act as a
state agency before the dissent is inclined to include
the state law in its contemplation. This misstep, in
turn, leads to the dissent’s logical—though erroneous

27a
due to the faulty original premise—sequential
misstep that “the federal law and state law
fundamentally conflict.” Consequently, instead of
utilizing the aforementioned established tenets of
statutory construction “that statutes in pari materia,
and all parts thereof, should be construed together
and compared with each other [because] [s]uch
statutes should be reconciled with each other when
possible,” Empire Power, 337 N.C. at 591, 447 S.E.2d
at 781, the dissent chooses to construe the cited
principles in Oneok to support the applicability of the
doctrine of conflict preemption in the instant case.
Ultimately, as a result of the misapprehended
precursors, the dissent arrives at its conclusion that
conflict preemption exists here, as the principle is
explained in Oneok.
Oneok presented an opportunity for the Supreme
Court of the United States to address the issue of
whether the federal Natural Gas Act preempted state
antitrust lawsuits against interstate pipelines which
would be based upon non-federally regulated retail
natural gas prices. Oneok, 575 U.S. at 376, 135 S. Ct.
1591. In holding that the state’s antitrust claims were
not preempted by the federal Natural Gas Act, the
high court explained that an examination of the
applicability of preemption must “emphasize the
importance of considering the target at which the
state law aims in determining whether that law is
preempted.” Id. at 377, 135 S. Ct. 1591. Just as the
United States Supreme Court determined in Oneok
that it would not find the operation of the principle of
conflict preemption as appropriate in construing the

28a
federal law and the state law, we agree with the
overarching principle enunciated in Oneok and
therefore apply it here. While conflict preemption
exists where compliance with both state and federal
law is impossible or where the state law stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress, conflict
preemption does not exist in the present case because
compliance with both the Public Records Act and
FERPA is possible, and the Public Records Act does
not stand as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress regarding the governance of education
under Title 20 of the Unites States Code.
Lastly, defendants’ reliance on United States v.
Miami University, 294 F.3d 797 (6th Cir. 2002) to
establish the existence of the field preemption aspect
of the federal preemption doctrine to this Court’s
satisfaction is unpersuasive. While we reiterate that
the analysis which this Court elects to engage is
arguably superfluous due to defendants’ illustrated
misassumptions, we choose to evaluate this
remaining feature of the federal preemption doctrine
in order to address defendants’ contention that in
Miami University, “[t]he court rejected claims that
the Ohio public records law was broad and required
disclosure.” However, while the Sixth Circuit Court of
Appeals acknowledged that FERPA generally shields
student disciplinary records from release, the
exception to the Act’s disclosure prohibitions in
Miami University which has direct application to the

29a
instant case was viewed by the federal appellate court
in the following manner:
Congress balanced the privacy interests of an
alleged perpetrator of any crime of violence or
nonforcible sex offense with the rights of the
alleged victim of such a crime and concluded
that the right of an alleged victim to know the
outcome of a student disciplinary proceeding,
regardless of the result, outweighed the alleged
perpetrator’s privacy interest in that
proceeding. Congress also determined that, if
the institution determines that an alleged
perpetrator violated the institution’s rules with
respect to any crime of violence or nonforcible
sex offense, then the alleged perpetrator’s
privacy interests are trumped by the public’s
right to know about such violations.
294 F.3d 797, 812-13 (2002) (emphasis added).
The federal appellate court’s ruling in Miami
University clearly demonstrates that the principle of
field preemption does not apply to this case and that
defendants’ dependence on its operation here is
misplaced. Although FERPA is a legislative
enactment of Congress, nevertheless the public
records law of Ohio was deemed to be the prevailing
authority where the access to information about the
result of a student disciplinary proceeding regarding
any allegation of a crime of violence or nonforcible sex
offense outweighed the alleged student perpetrator’s
privacy interests which are generally protected by
FERPA. In light of the strong parallels between the

30a
state public records laws of Ohio and North Carolina,
the subject matter of the disclosure of the outcomes of
the types of student disciplinary proceedings of
educational institutions located in each of the two
states, and each university’s respective reliance on
the applicability of the field preemption doctrine
based on a contention that FERPA preempts the
operation of such a state public records law, we
embrace the logic of the Sixth Circuit Court of
Appeals. In enacting FERPA, Congress has not
forbidden North Carolina’s legislative body from
taking action in the field of education where the
disclosure of the result of a student disciplinary
proceeding conducted at a public postsecondary
educational institution which operates as an agency
of North Carolina is mandated by the state’s Public
Records Act. Consequently, defendants’ reliance on
the principle of field preemption fails.
In the instant case, the federal preemption
doctrine does not apply; therefore, the Family
Educational Rights and Privacy Act does not preempt
the Public Records Act so as to prohibit UNC-CH from
disclosing the final results of any disciplinary
proceeding as requested by plaintiffs.
Conclusion
We hold that officials of The University of North
Carolina at Chapel Hill are required to release as
public records certain disciplinary records of its
students who have been found to have violated UNCCH’s sexual assault policy. The University does not
have discretion to withhold the information sought

31a
here, which is authorized by, and specified in, the
federal Family Educational Rights and Privacy Act as
subject to release. Accordingly, as an agency of the
state, UNC-CH must comply with the North Carolina
Public Records Act and allow plaintiffs to have access
to the name of the student, the violation committed,
and any sanction imposed by the University on that
student in response to plaintiffs’ records request.
AFFIRMED.

32a
Justice DAVIS, dissenting.
I respectfully dissent. The majority’s analysis
fundamentally misapplies the federal preemption
doctrine. As discussed more fully below, the
dispositive issue in this case is whether FERPA
confers discretion upon universities regarding
whether to release the category of records at issue. If
FERPA does so, then the doctrine of preemption
precludes states from mandating that universities
exercise that discretion in a certain way.
The threshold question of whether such discretion
exists must be resolved solely by examining the
relevant federal law, which in this case consists of
FERPA and its accompanying federal regulations.
The majority goes astray in this inquiry by instead
looking to state law to determine whether discretion
has been conferred. In doing so, the majority turns the
preemption analysis on its head. It simply makes no
sense to examine a provision of state law to determine
whether Congress has conferred discretion upon
universities.
The essence of the preemption doctrine is that
state law cannot conflict with federal law. In this case,
the specific question is whether the application of the
North Carolina Public Records Act—which, in the
absence of FERPA, would require defendants to
produce these records—would be inconsistent with
how Congress has authorized universities to treat
such records. Therefore, because this inquiry solely
concerns the intent of Congress, it is illogical to look
to North Carolina law to determine congressional

33a
intent. It is only once a determination has been made
as to whether federal law confers such discretion that
it then becomes appropriate to examine state law to
ascertain whether a conflict exists between state and
federal law on the issue. But state law has no bearing
on the issue of whether such discretion exists in the
first place. It is this basic error that infects the
majority’s entire analysis and causes it to reach a
result that is legally incorrect.
The specific provision of FERPA relevant to this
case is 20 U.S.C. § 1232g(b)(6)(B) (2018), which
provides, in pertinent part, as follows:
Nothing in this section shall be construed to
prohibit an institution of postsecondary
education from disclosing the final results of
any disciplinary proceeding conducted by such
institution against a student who is an alleged
perpetrator of any crime of violence . . . or a
nonforcible sex offense, if the institution
determines as a result of that disciplinary
proceeding that the student committed a
violation of the institution’s rules or policies
with respect to such crime or offense.
Id. (emphasis added). This statutory provision is
supplemented by the following pertinent provisions
contained in regulations promulgated by the United
States Department of Education and codified in the
Code of Federal Regulations:
(a) An educational agency or institution may
disclose personally identifiable information

34a
from an education record of a student . . . if the
disclosure meets one or more of the following
conditions:
....
(14)
(i) The disclosure . . . is in connection with a
disciplinary proceeding at an institution of
postsecondary education. The institution
must not disclose the final results of the
disciplinary
proceeding
unless
it
determines that—
(A) The student is an alleged perpetrator
of a crime of violence or non-forcible sex
offense; and
(B) With respect to the allegation made
against him or her, the student has
committed a violation of the institution’s
rules or policies.
34 C.F.R. § 99.31(a)(14)(i) (2019) (emphasis added).
The regulations then proceed to clarify that
“paragraph[ ] (a) . . . of this section do[es] not require
an educational agency or institution . . . to disclose
education records or information from education
records to any party, except for parties under
paragraph (a)(12) of this section.” 34 C.F.R. § 99.31(d)
(emphasis added). Paragraph (a)(12), in turn, applies
only to the disclosure of information “to the parent of

35a
a student . . . or to the student.” 34 C.F.R.
§ 99.31(a)(12).
Thus, FERPA’s grant of discretion to universities
regarding the release of these records to third parties
such as plaintiffs is evidenced by the pertinent
language of the statute itself read in conjunction with
the language of the accompanying federal
regulations. As quoted above, the applicable provision
of FERPA states that “[n]othing in this section shall
be construed to prohibit” disclosure—language that
neither prohibits nor requires the release by
universities of the category of records sought by
plaintiffs. 20 U.S.C. § 1232g(b)(6)(B). This permissive
language is then reinforced by the language of the
accompanying federal regulations, which remove any
doubt on this issue. These regulations plainly and
unambiguously state that a university “may”—but is
“not require[d]” to—disclose such records to parties
other than the students themselves and their parents.
34 C.F.R. § 99.31(a), (d). Thus, the combined effect of
20 U.S.C. § 1232g(b)(6)(B) and 34 C.F.R. § 99.31
serves to make clear that a university has the
authority to produce the records at issue upon request
by a third party if it chooses to do so in the exercise of
its independent judgment.
The Supreme Court of the United States—like this
Court—has made clear that when a statute says an
actor “may” take certain action, such language
constitutes a grant of discretion to that actor. See, e.g.,
Halo Elecs., Inc. v. Pulse Elecs., Inc., ––– U.S. ––––,
136 S. Ct. 1923, 1931, 195 L.Ed.2d 278 (2016) (“[W]e

36a
have emphasized that the word ‘may’ clearly connotes
discretion.”); Jama v. Immigration and Customs
Enf’t, 543 U.S. 335, 346, 125 S. Ct. 694, 160 L.Ed.2d
708 (2005) (“The word ‘may’ customarily connotes
discretion.”); Fogerty v. Fantasy, Inc., 510 U.S. 517,
533, 114 S. Ct. 1023, 127 L.Ed.2d 455 (1994) (“The
word ‘may’ clearly connotes discretion.”); United
States v. Rodgers, 461 U.S. 677, 706, 103 S. Ct. 2132,
76 L.Ed.2d 236 (1983) (“The word ‘may,’ when used in
a statute, usually implies some degree of discretion.”);
see also Silver v. Halifax Cty. Bd. of Comm’rs, 371
N.C. 855, 863-864, 821 S.E.2d 755, 760-762 (2018)
(explaining that the word “ ‘may’ is generally intended
to convey that the power granted can be exercised in
the actor’s discretion”).
Indeed, both in its appellate brief to this Court and
at oral argument, plaintiffs’ counsel expressly
conceded that FERPA grants discretion to defendants
regarding the release of the records sought in this
lawsuit. See Pl.’s Br. at 12-13 (“In their brief
defendants argue that . . . FERPA confers them with
‘discretion’ whether to release or withhold the records
at issue. Indeed, it does . . .”) (emphasis added).
This concession by plaintiffs’ counsel is not
surprising. Given the absence of any dispute that the
category of documents sought by plaintiffs in this case
is, in fact, governed by 20 U.S.C. § 1232g(b)(6)(B),
there are only three possible conclusions. FERPA
either (1) prohibits universities from producing the
records at issue; (2) requires that they produce the
records; or (3) allows universities to exercise their

37a
own independent judgment over whether to produce
them. Given that the majority does not take the
position that Congress has either expressly required
or expressly prohibited such disclosure, the only
remaining option is the third one—that is, the
conclusion that FERPA confers discretion on
universities as to whether such records should be
produced to a third party in a particular case. Indeed,
at one point in its analysis, the majority appears to
recognize that discretion exists under federal law,
stating that “standing alone, a postsecondary
educational institution possesses such discretion to
disclose” these records.1
Because it is clear that such discretion exists
under FERPA, the only remaining question is
whether a state law such as North Carolina’s Public
Records Act can lawfully require that a university
exercise its discretion in favor of disclosure. Under the
doctrine of federal preemption, the answer is no. A
university must be allowed to exercise its federally

The majority also acknowledges that it is only because UNCCH is a public institution that North Carolina’s Public Records
Act applies and therefore private educational institutions in this
state unquestionably continue to possess the discretion granted
by FERPA to decide whether to release the requested
information. If there was no conflict between FERPA and the
Public Records Act, then private and public institutions would
be in the same situation. However, it is precisely because of that
conflict that the majority’s opinion results in different rules for
post-secondary educational institutions in the state, depending
on whether they are public or private.
1

38a
mandated discretion unimpeded by a state law that
seeks to eliminate that discretion.
The Supremacy Clause of the United States
Constitution provides that “the Laws of the United
States . . . shall be the supreme Law of the Land . . .
[the] Laws of any State to the Contrary
notwithstanding.” Art. VI, cl. 2. As a result, “when
federal and state law conflict, federal law prevails and
state law is preempted.” Murphy v. Nat’l Collegiate
Athletic Ass’n, ––– U.S. ––––, 138 S. Ct. 1461, 1476,
200 L.Ed.2d 854 (2018). The Supreme Court of the
United States has made clear that preemption can
occur not only through a federal statute but also based
on federal regulations. See Fidelity Fed. Sav. and
Loan Ass’n v. de la Cuesta, 458 U.S. 141, 153, 102 S.
Ct. 3014, 73 L.Ed.2d 664 (1982) (“Federal regulations
have no less pre-emptive effect than federal
statutes.”); see also City of New York v. F.C.C., 486
U.S. 57, 64, 108 S. Ct. 1637, 100 L.Ed.2d 48 (1988)
(“The statutorily authorized regulations of an agency
will pre-empt any state or local law that conflicts with
such regulations or frustrates the purposes thereof.”).
The Supreme Court has recognized three different
forms of this doctrine: (1) express preemption, (2) field
preemption, and (3) conflict preemption. Murphy, 138
S. Ct. at 1480. Express preemption occurs when a
federal statute uses explicit language indicating its
intent to override state law. See English v. Gen. Elec.
Co., 496 U.S. 72, 78-79, 110 S. Ct. 2270, 110 L.Ed.2d
65 (1990). Field preemption occurs when Congress
passes comprehensive legislation intending “to

39a
occupy an entire field of regulation,” acting as the
exclusive authority in that area and “leaving no room
for the States to supplement federal law.” Nw. Cent.
Pipeline Corp. v. State Corp. Comm’n of Kansas, 489
U.S. 493, 509, 109 S. Ct. 1262, 103 L.Ed.2d 509 (1989).
The final type of preemption is conflict preemption
(also known as implied preemption), which occurs
when federal law and state law fundamentally
conflict. Conflict preemption exists when (1)
“compliance with both state and federal law is
impossible” or (2) when state law “stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” Oneok Inc.
v. Learjet, Inc., 575 U.S. 373, 377, 135 S. Ct. 1591, 191
L.Ed.2d 511 (2015).
The present case involves conflict preemption. A
university cannot simultaneously (1) exercise its
discretion conferred by FERPA regarding whether
these records should be produced to third parties
upon request; and (2) be automatically required by
state law to produce those same records on demand.
A federal law that grants discretion to universities is
fundamentally irreconcilable with a state law that
seeks to override that discretion. FERPA gives
defendants a choice, while the Public Records Act
gives them a command. As a result, the doctrine of
conflict preemption is directly applicable.
In asserting that the doctrine of conflict
preemption does not apply in this case, the majority
misapprehends the basic inquiry in which a court
must engage when faced with a federal preemption

40a
issue. If—as here—a conflict exists between state and
federal law, the federal law must prevail. Thus, the
majority’s assertion that application of the
preemption doctrine would require “erroneously
elevating” the federal law while “wrongfully
subjugating” the state law is, in reality, nothing less
than a rejection of the preemption doctrine itself.
While its opinion is not entirely clear, the majority
then appears to state its belief that—even assuming
discretion does exist under FERPA—the preemption
doctrine is not triggered simply because releasing the
records as mandated by North Carolina’s Public
Records Act is one of the options available to
defendants in the exercise of their discretion. But this
reasoning is antithetical to the very concept of
discretion. Black’s Law Dictionary defines discretion
as “[w]ise conduct and management exercised without
constraint; the ability coupled with the tendency to
act with prudence and propriety . . . [f]reedom in the
exercise of judgment; the power of free decisionmaking.” Black’s Law Dictionary (11th ed. 2019)
(emphasis added). It is self-evident that a law that
commands a single outcome necessarily conflicts with
a separate law that grants the power of unconstrained
decision-making.
Moreover, the Supreme Court of the United States
has expressly rejected the very mode of reasoning
engaged in by the majority. In Barnett Bank of
Marion Cty., N.A. v. Nelson, 517 U.S. 25, 116 S. Ct.
1103, 134 L.Ed.2d 237 (1996), a federal statute
granted national banks the authority to sell

41a
insurance, but Florida law prohibited such banks
from doing so. Id. at 27-28, 116 S. Ct. 1103. The
Supreme Court first noted that “the two statutes do
not impose directly conflicting duties on national
banks—as they would, for example, if the federal law
said ‘you must sell insurance,’ while the state law
said, ‘you may not.’ ” Id. at 31, 116 S. Ct. 1103.
Nevertheless, the Supreme Court determined that
the federal statute preempted the Florida law. Id. The
Supreme Court characterized the conflict as involving
a federal statute that “authorizes national banks to
engage in activities that the State Statute expressly
forbids.” Id. The Supreme Court concluded that when
Congress grants an entity “an authorization,
permission, or power,” states may not “forbid, or [ ]
impair significantly, exercise of a power that
Congress explicitly granted.” Id. at 33, 116 S. Ct.
1103.
Similarly, in Fidelity Fed. Sav. and Loan Ass’n v.
de la Cuesta, 458 U.S. 141, 102 S. Ct. 3014, 73 L.Ed.2d
664 (1982), a federal regulation permitted savings
and loan associations to utilize due-on-sale clauses in
contracts, but California law limited the use of these
clauses. Id. at 144–145, 102 S. Ct. 3014. The Supreme
Court held that the state law was preempted,
explaining that the “conflict [between the laws] does
not evaporate because the [ ] regulation simply
permits, but does not compel” banks to include such
clauses. Id. at 155, 102 S. Ct. 3014. Just as in Barnett,
the Supreme Court found it immaterial that
compliance with both laws “may not be a physical
impossibility,” reasoning that the state law

42a
impermissibly deprived the banks of the “flexibility
given it by the [federal regulation].” Id. See also
Lawrence Cty. v. Lead-Deadwood Sch. Dist. No. 40-1,
469 U.S. 256, 260–61, 105 S. Ct. 695, 83 L.Ed.2d 635
(1985) (holding that a federal law providing that
counties “may use [certain specified federal]
payments for any governmental purpose” preempted
a state law requiring counties to allocate those
payments to school districts; rejecting as “seriously
flawed” the state’s argument that no preemption
existed simply because the funding of school districts
constituted a governmental purpose).
The same principles apply here. FERPA and its
accompanying regulations gave defendants the
discretion to decide whether release of the records
sought by plaintiffs was appropriate. The Public
Records Act, conversely, would—if given effect—
make the release of such records mandatory, thereby
completely eliminating the discretion conferred by
Congress. Therefore, the Public Records Act cannot be
given effect under these circumstances. In short, a
federal law’s “may” cannot be constrained by a state
law’s “must.”
For these reasons, I would reverse the decision of
the Court of Appeals. Accordingly, I respectfully
dissent.2

It is important to emphasize that this Court lacks the
authority to determine whether the release of the records sought
by plaintiffs is wise or unwise as a matter of public policy.
Congress has expressly made that determination by conferring
2

43a
Justices ERVIN and EARLS join in this dissenting
opinion.

discretion upon universities regarding the disclosure of such
information.

44a
IN THE COURT OF APPEALS OF NORTH
CAROLINA
No. COA17-871
Filed: 17 April 2018
Wake County, No. 16 CVS 14300
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
Appeal by plaintiffs from order entered 9 May
2017 by Judge Allen Baddour in Wake County
Superior Court. Heard in the Court of Appeals 20
March 2018.
Stevens Martin Vaughn & Tadych, PLLC, by Hugh
Stevens and Michael J. Tadych, for plaintiffsappellants.

45a
Joshua H. Stein, Attorney General, by Stephanie A.
Brennan, Special Deputy Attorney General, for
defendants-appellees.
Engstrom Law, PLLC, by Elliot Engstrom, for Student
Press Law Center, amicus curiae.
TYSON, Judge.
I. Background
This Court reviews the federal Family
Educational Rights and Privacy Act, 20 U.S.C.
§ 1232g (2017) (“FERPA”), and the North Carolina
Public Records Act, N.C. Gen. Stat. §§ 132-1 to -11
(2017) (the “Public Records Act”), to determine
whether officials of The University of North Carolina
at Chapel Hill (“UNC-CH”) are required to release
students’ disciplinary records, who have been found
to have violated UNC-CH’s sexual assault policy. The
following facts were stipulated to by the parties and
adopted by the trial court.
DTH Media Corporation; Capitol Broadcasting
Company, Inc.; The Charlotte Observer Publishing
Company; and, The Durham Herald Company
(collectively, “Plaintiffs”), are North Carolina-based
news organizations, which regularly cover events at
UNC-CH. The defendants are Carol L. Folt, the
Chancellor of UNC-CH, and Gavin Young, the Senior
Director of Public Records of UNC-CH (collectively,
“Defendants”), who are being sued in their official
capacities.

46a
Plaintiffs sent a public records request to UNC-CH
in a letter dated 30 September 2016, asking for
“copies of all public records made or received by
[UNC-CH] in connection with a person having been
found responsible for rape, sexual assault or any
related or lesser included sexual misconduct by
[UNC-CH’s] Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office.”
UNC-CH denied Plaintiffs’ request on 28 October
2016 in a letter signed by Joel G. Curran, UNC-CH’s
Vice-Chancellor for Communications and Public
Affairs. Vice-Chancellor Curran concluded the
records requested by Plaintiffs are “educational
records” as defined by FERPA and are “protected from
disclosure by FERPA.”
After denial of their request, Plaintiffs filed a
complaint and petitioned for an order to show cause
against Defendants on 21 November 2016, under the
Public Records Act, and the North Carolina
Declaratory Judgments Act, N.C. Gen. Stat. §§ 1-253
to -267. Plaintiffs sought, in part: (1) a preliminary
order compelling Defendants to appear and produce
the records at issue; (2) an order declaring that the
requested records are public records as defined by
N.C. Gen. Stat. § 132-1; (3) an order compelling
Defendants to permit the inspection and copying of
public records pursuant to N.C. Gen. Stat. § 132-9(a).
On 21 December 2016, Defendants filed their
answer to Plaintiffs’ complaint and petition.
Following subsequent communications between the

47a
parties, including a mediation conducted pursuant to
N.C. Gen. Stat. § 78-38.3E, Plaintiffs narrowed the
scope of their request to encompass records in the
custody of UNC-CH and limited to: “(a) the name of
any person who, since January 1, 2007, has been
found responsible for rape, sexual assault or any
related or lesser included sexual misconduct by the
[UNC-CH] Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office; (b) the date and nature of each violation for
which each such person was found responsible; and
(c) the sanctions imposed on each such person for each
such violation.” Defendants stipulated that UNC-CH
retains the records sought by Plaintiffs in their
narrowed request. The matter was heard in Wake
County Superior Court on 6 April 2017. On 9 May
2017, the trial court entered an order and final
judgment denying Plaintiffs’ request, as it related to
students who had been found responsible for serious
sexual misconduct. The court granted Plaintiffs’
request for records related to UNC-CH employees,
who had been disciplined for such offenses.
The trial court’s order and final judgment
concluded the Public Records Act does not compel
release of student records where “otherwise
specifically provided by law.” The trial court
concluded FERPA “otherwise specifically provides”
and grants UNC-CH “discretion to determine
whether to release (1) the name of any student found
‘responsible’ under [UNC-CH’s] policy for a ‘crime of
violence’ or ‘nonforcible sex offense,’ (2) the violation,
and (3) the sanction imposed.” Plaintiffs timely filed

48a
notice of appeal from the trial court’s order and final
judgment.
Defendants complied with that portion of the trial
court’s order and final judgment relating to records
regarding UNC-CH’s employees, and both parties
agree UNC-CH employees’ records addressed in the
order and judgment are not at issue on appeal.
II. Jurisdiction
Jurisdiction lies in this court over appeal of a final
judgment of the superior court in a civil case. N.C.
Gen. Stat. § 7A-27(b)(1) (2017).
III. Issue
Plaintiffs argue their public record’s request for
the disciplinary information of UNC-CH students
falls within an exemption to FERPA’s non-disclosure
provisions and Defendants are required to comply
with their Public Records Act request.
IV. Standard of Review
“Questions of statutory interpretation are
questions of law, which are reviewed de novo by an
appellate court.” In re Proposed Assessments v.
Jefferson-Pilot Life Ins. Co., 161 N.C. App. 558, 559,
589 S.E.2d 179, 180 (2003) (citation omitted). This
appeal
involves
questions
regarding
the
interpretation of FERPA and the Public Records Act.
We review de novo.

49a
V. Analysis
A. North Carolina Public Records Act
The Public Records Act is codified at N.C. Gen.
Stat. §§ 132-1 to -11 (2017). The public policy
underlying the Public Records Act is enunciated by
the General Assembly at N.C. Gen. Stat. § 132-1(b),
which provides, “The public records and public
information compiled by the agencies of North
Carolina government or its subdivisions are the
property of the people. Therefore, it is the policy of
this State that the people may obtain copies of their
public records and public information free or at
minimal cost[.]”
The Public Records Act “affords the public a broad
right of access to records in the possession of public
agencies and their officials.” Times-News Publ’g Co. v.
State of N.C., 124 N.C. App. 175, 177, 476 S.E.2d 450,
451-52 (1996), disc. review denied, 345 N.C. 645, 483
S.E.2d 717 (1997). “[T]he purpose of the Public
Records Act is to grant liberal access to documents
that meet the general definition of ‘public records[.]’ ”
Jackson v. Charlotte Mecklenburg Hosp. Auth., 238
N.C. App. 351, 352, 768 S.E.2d 23, 24 (2014).
The Public Records Act defines “public records” to
include “all . . . material, regardless of physical form
or characteristics, made or received pursuant to law
or ordinance in connection with the transaction of
public business by any agency of North Carolina
government or its subdivisions.” N.C. Gen. Stat.
§ 132-1(a).

50a
The Public Records Act permits public access to all
public records in an agency’s possession “unless either
the agency or the record is specifically exempted from
the statute’s mandate.” Times-News, 124 N.C. App. at
177, 476 S.E.2d at 452 (emphasis supplied).
“Exceptions and exemptions to the Public Records Act
must be construed narrowly.” Carter-Hubbard Publ’g
Co., Inc. v. WRMC Hosp. Operating Corp., 178 N.C.
App. 621, 624, 633 S.E.2d 682, 684 (2006) (citation
omitted), aff’d, 361 N.C. 233, 641 S.E.2d 301 (2007).
Here, the trial court correctly determined that the
UNC-CH student disciplinary records requested by
Plaintiffs are “public records” as defined by the Public
Records Act at N.C. Gen. Stat. § 132-1(b). Neither
party contests the trial court’s determination and
conclusion that the records at issue are “public
records” under the Public Records Act. Also, neither
party disputes that UNC-CH is a public agency of
North Carolina and is subject to the Public Records
Act. See N.C. Gen. Stat. § 132-1(b).
B. Family Educational Rights and Privacy Act
The Congress of the United States enacted FERPA
in 1974 “under its spending power to condition the
receipt of federal funds on certain requirements
relating to the access and disclosure of student
educational records.” Gonzaga Univ. v. Doe, 536 U.S.
273, 278, 122 S. Ct. 2268, 2272-73, 153 L.Ed.2d 309,
318 (2002). “The Act directs the Secretary of
Education to withhold federal funds from any public
or private ‘educational agency or institution’ that fails

51a
to comply with these conditions.” Id. FERPA provides,
in part, that:
No funds shall be made available under any
applicable program to any educational agency
or institution which has a policy or practice of
permitting the release of education records (or
personally identifiable information contained
therein . . .) of students without the written
consent of their parents to any individual,
agency, or organization. . . .
20 U.S.C. § 1232g(b)(1).
FERPA defines “education records” as “those
records, files, documents, and other materials
which—(i) contain information directly related to a
student; and (ii) are maintained by an educational
agency or institution or by a person acting for such
agency or institution.” 20 U.S.C. § 1232g(a)(4)(A); see
also 34 C.F.R. § 99.3 (specifying definition of
“education records” under FERPA). Plaintiffs and
Defendants concede that UNC-CH receives federal
funding and is generally subject to FERPA.
The parties also do not dispute the records
Plaintiffs requested are “educational records.”
Twenty years ago with similar parties, this Court
recognized that student disciplinary records are
“educational records” for purposes of FERPA. DTH
Publ’g Corp. v. UNC-Chapel Hill, 128 N.C. App. 534,
541, 496 S.E.2d 8, 13, disc. review denied, 348 N.C.
496, 510 S.E.2d 382 (1998); see United States v. Miami
Univ., 294 F.3d 797, 812 (6th Cir. 2002) (“[S]tudent

52a
disciplinary records are education records because
they directly relate to a student and are kept by that
student’s university.”).
FERPA permits the release of certain student
disciplinary records in several situations. FERPA
expressly exempts and does not prohibit disclosure “to
an alleged victim of any crime of violence . . . or a
nonforcible sex offense, the final results of any
disciplinary proceeding conducted by the institution
against the alleged perpetrator . . . .” 20 U.S.C.
§ 1232g(b)(6)(A). Most relevant here is another
exemption of FERPA, which allows an educational
institution to release “the final results of any
disciplinary proceeding . . . if the institution
determines as a result of that disciplinary proceeding
that the student committed a violation of the
institution’s rules or policies with respect to such
crime or offense.” 20 U.S.C. § 1232g(b)(6)(B).
Plaintiffs assert: (1) this express exemption
removes their request for disclosure from exclusion
under FERPA’s sanctions; (2) FERPA does not
prohibit Defendants from complying with their
request; and, (3) as a result, the express intent of the
Public Records Act requires Defendants to comply
with Plaintiffs’ request.
Defendants contend § 1232g(b)(6)(B) of FERPA
impliedly
grants
and
requires
educational
institutions to exercise discretion when deciding
whether to release the student disciplinary records
admittedly exempted from FERPA’s non-disclosure
provisions. They argue the binding Public Records Act

53a
conflicts with § 1232g(b)(6)(B) by removing the
institution’s discretion to decide whether to release
the exempted records. Defendants assert “the federal
Family Educational Rights and Privacy Act . . .
governs the records at issue and precludes their
release.” Defendants conclude that to the extent the
Public Records Act conflicts with FERPA’s implied
grant of discretion to UNC-CH, FERPA is supreme
and pre-empts our Public Records Act, as federal law.
The trial court agreed with Defendants’ arguments.
C. Reconciling the Public Records Act and FERPA
1. Canons of Statutory Interpretation
To assess the parties’ arguments, we must first
determine whether a conflict exists between FERPA
and the Public Records Act. In reviewing the
relationship and any overlapping coverages between
FERPA and the Public Records Act, we are guided by
several well-established principles of statutory
construction.
“The principal goal of statutory construction is to
accomplish the legislative intent.” Lenox, Inc. v.
Tolson, 353 N.C. 659, 664, 548 S.E.2d 513, 517 (2001)
(citing Polaroid Corp. v. Offerman, 349 N.C. 290, 297,
507 S.E.2d 284, 290 (1998)). “The best indicia of that
intent are the [plain] language of the statute . . ., the
spirit of the act and what the act seeks to accomplish.”
Coastal Ready-Mix Concrete Co. v. Bd. of Comm’rs,
299 N.C. 620, 629, 265 S.E.2d 379, 385 (1980)
(citations omitted).

54a
“When construing legislative provisions, this
Court looks first to the plain meaning of the words of
the statute itself[.]” State v. Ward, 364 N.C. 157, 160,
694 S.E.2d 729, 731 (2010). “Interpretations that
would create a conflict between two or more statutes
are to be avoided, and statutes should be reconciled
with each other whenever possible.” Taylor v.
Robinson, 131 N.C. App. 337, 338, 508 S.E.2d 289, 291
(1998) (internal quotation marks and ellipses
omitted) (citing Meyer v. Walls, 122 N.C. App. 507,
512, 471 S.E.2d 422, 426 (1996), aff’d in part, rev’d in
part, 347 N.C. 97, 489 S.E.2d 880 (1997)).
“‘[S]tatutes in pari materia must be read in
context with each other.’” News & Observer Publ’g Co.
v. Wake Cty. Hosp. System, Inc., 55 N.C. App. 1, 7, 284
S.E.2d 542, 546 (1981) (quoting Cedar Creek Enters.
v. Dep’t of Motor Vehicles, 290 N.C. 450, 454, 226
S.E.2d 336, 338 (1976)). “‘In pari materia’ is defined
as ‘[u]pon the same matter or subject.’” Id. at 7-8, 284
S.E.2d at 546 (quoting Black’s Law Dictionary 898
(4th ed. 1968)).
Here, the “plain language” of § 1232g(b)(6)(B) of
FERPA states:
Nothing in this section shall be construed to
prohibit an institution of postsecondary
education from disclosing the final results of
any disciplinary proceeding . . . if the
institution determines as a result of that
disciplinary proceeding that the student
committed a violation of the institution’s rules
or policies with respect to such crime or offense.

55a
Defendants argue, and the trial court agreed, that
this language requires UNC-CH to exercise discretion
on whether to release the admittedly public records of
the final results of disciplinary hearings. Defendants
have not cited any case law interpreting FERPA to
support their proposed interpretation of this
provision. Plaintiffs argue the plain language of the
statute does not support Defendants’ and the trial
court’s interpretation.
Our comprehensive review of relevant case and
statutory law from this and other jurisdictions, both
state and federal, fails to disclose any authority
interpreting FERPA’s § 1232g(b)(6)(B) as providing to
public postsecondary educational institutions an
express absolute discretionary authority over
whether to release FERPA-exempted student
disciplinary records and subject to disclosure under
its express terms.
The language “[n]othing . . . shall be construed to
prohibit an institution . . . from disclosing the final
results of any disciplinary proceeding” does not
indicate any congressional intent to require
educational institutions to exercise discretion over or
before
releasing
FERPA-exempted
student
disciplinary records in contravention of unambiguous
and broad state public records laws expressly
requiring such disclosure. No language in
§ 1232g(b)(6)(B) or the corresponding Code of Federal
Regulations provisions speak to whether an
educational institution must exercise discretion over
whether to disclose student disciplinary records. 20

56a
U.S.C. § 1232g(b)(6)(B), 34 C.F.R. 99.31(a)(14).
Defendants do not argue that the records Plaintiffs
requested are prohibited or exempted from disclosure,
or cannot be disclosed or released under
§ 1232g(b)(6)(B) without potential sanctions under
FERPA.
The only language in § 1232g(b)(6)(B) that
concerns an educational institution’s purported
“discretion” is: “if the institution determines as a
result of that disciplinary proceeding that the student
committed a violation of the institution’s rules or
policies with respect to such crime or offense.” 20
U.S.C. § 1232g(b)(6)(B) (emphasis supplied).
Plaintiffs’ records request is limited to students, who
UNC-CH has already expressly determined to have
engaged in such misconduct, and the records of which
are expressly subject to disclosure under FERPA. 20
U.S.C. § 1232g(b)(6)(B).
UNC-CH’s process used to determine whether a
student violated school policy or crimes involves a
completely different and separate determination from
whether the admittedly public records relating to the
discipline previously imposed for the misconduct
should be released. FERPA’s plain language in
§ 1232g(b)(6)(B) does not condition an educational
institution’s compliance on requiring the exercise of
discretion to determine whether to release
disciplinary records that FERPA expressly exempts
from non-disclosure, in the face of a public records
request.

57a
Defendants’ assertion of an absolute authority to
exercise discretion on whether to release non-exempt
records is undercut by other provisions of FERPA.
§ 1232g(b)(2)(B) provides:
(2) No funds shall be made available under any
applicable program to any educational agency
or institution which has a policy or practice of
releasing, or providing access to, any
personally
identifiable
information
in
education records other than directory
information, or as is permitted under
paragraph (1) of this subsection, unless—
...
(B) except as provided in paragraph (1)(J), such
information is furnished in compliance with
judicial order, or pursuant to any lawfully
issued subpoena, upon condition that parents
and the students are notified of all such orders
or subpoenas in advance of the compliance
therewith by the educational institution or
agency . . . .
20 U.S.C. § 1232g(b)(2)(B) (emphasis supplied).
The regulations implementing this provision
provide:
(a) An educational agency or institution may
disclose personally identifiable information
from an education record of a student without

58a
the consent required by § 99.30 if the disclosure
meets one or more of the following conditions:
...
(9)(i) The disclosure is to comply with a judicial
order or lawfully issued subpoena.
34 C.F.R. 99.31(a)(9)(i) (emphasis supplied).
Defendants’ position that FERPA grants them
absolute discretion to decide whether to release
exempt disciplinary records is contradicted by these
provisions, which do not prohibit an educational
institution from complying with a judicial order.
§ 1232g(b)(2)(B) makes no distinction between a
judicial order that requires disclosure and an order
that authorizes disclosure. If a court orders an
educational institution to release an exempt record,
§ 1232g(b)(2)(B) does not indicate the institution
would be in violation of FERPA by complying with a
mandatory court order. 20 U.S.C. § 1232g(b)(2)(B); 34
C.F.R. 99.31(a)(9)(i).
However, we note that we do not interpret
§ 1232g(b)(2)(B) as granting a court the authority to
remove an education record’s non-disclosable status
by ordering its release. See Press-Citizen Co. v. Univ.
of Iowa, 817 N.W.2d 480, 493 (Iowa 2012) (stating
that “[it] would make no sense to interpret the
‘judicial order’ exception” in a way that would mean
FERPA only has effect until a party requesting
records obtains a court order compelling release).

59a
Interpreting § 1232g(b)(2)(B) and § 1232g(b)(6)(B)
together indicates an educational institution would
not be subject to loss of funding or other sanction for
complying with a judicial order mandating disclosure
of records that are exempt from FERPA’s protections.
20 U.S.C. § 1232g(b)(2)(B); § 1232g(b)(6)(B); see In re
Hayes, 199 N.C. App. 69, 79, 681 S.E.2d 395, 401
(2009) (“Words and phrases of a statute are to be
construed as a part of the composite whole[.]”), disc.
review denied, 363 N.C. 803, 690 S.E.2d 695 (2010).
2. Public Records Held by Public Agency
We decline to interpret FERPA as advocated by
Defendants. Such an interpretation conflicts with
both the Public Records Act’s mandatory disclosure
requirements and the plain meaning of FERPA’s
§ 1232g(b)(6)(B), which allows disclosure. See Taylor,
131 N.C. App. at 338, 508 S.E.2d at 291
(“Interpretations that would create a conflict between
two or more statutes are to be avoided, and statutes
should be reconciled with each other whenever
possible.”).
The disciplinary records at issue are stipulated by
the parties to be “public records,” and held by a
“public agency” subject to the Public Records Act and
that § 1232g(b)(6)(B) exempts them from FERPA’s
general non-disclosure of educational records.
3. Limitations on Disclosure
Plaintiffs request:

60a
(a) the name of any person who, since January
1, 2007, has been found responsible for rape,
sexual assault or any related or lesser included
sexual misconduct by the [UNC-CH] Honor
Court, the Committee on Student Conduct, or
the Equal Opportunity and Compliance Office;
(b) the date and nature of each violation for
which each such person was found responsible;
and (c) the sanctions imposed on each such
person for each such violation. (Emphasis
supplied).
FERPA only authorizes disclosure of “the name of
the student, the violation committed, and any
sanction imposed by the institution on that student”
from the general rule of non-disclosure of disciplinary
records. 20 U.S.C. § 1232g(b)(6)(B) (emphasis
supplied). The dates of offenses requested by
Plaintiffs are not disclosable under FERPA. See id.
N.C. Gen. Stat. § 132-1(b) provides that the public
may obtain copies of public records “unless otherwise
specifically provided by law.” N.C. Gen. Stat. § 1321(b) (emphasis supplied). Because § 1232g(b)(6)(B)
“otherwise specifically provide[s]” that only the
information listed therein is subject to disclosure, the
dates of student offenses are not subject to disclosure
under the Public Records Act. See id.; 20 U.S.C.
§ 1232g(b)(6)(B).
No conflict exists between FERPA and the Public
Records Act for UNC-CH to release the public records
within Plaintiffs’ limited and narrow requests. The
express terms of FERPA permit the disclosure of the

61a
information requested by Plaintiffs, except for the
dates of violations. See 20 U.S.C. § 1232g(b)(6)(B).
Defendants concede that if FERPA does not provide
them the discretion to withhold what are admitted to
be public records, they are compelled to release the
records.
As qualified above, we hold Defendants, as
administrators of a public agency, are required to
comply with Plaintiffs’ request to release the public
records at issue under the Public Records Act.
FERPA’s § 1232g(b)(6)(B) does not prohibit
Defendants’ compliance, to the extent Plaintiffs’
request the names of the offenders, the nature of each
violation, and the sanctions imposed. Defendants’
arguments are overruled.
D. Federal Pre-emption
Defendants also argue FERPA pre-empts the
Public Records Act with respect to the Public Records
Act’s mandatory disclosure requirements. We
disagree.
The Supremacy Clause of the Constitution of the
United States provides that the laws of the United
States, the Constitution and treaties “shall be the
supreme Law of the Land.” U.S. Const. Art. VI, cl 2.
“Congress may pre-empt, i.e., invalidate, a state law
through federal legislation” either expressly or
implicitly. Oneok, Inc. v. Learjet, Inc., ––– U.S. ––––,
––––, 135 S. Ct. 1591, 1595, 191 L.Ed.2d 511, 517
(2015). “A reviewing court confronting this question
begins its analysis with a presumption against federal

62a
preemption.” State ex rel. Utilities Comm’n v.
Carolina Power & Light Co., 359 N.C. 516, 525, 614
S.E.2d 281, 287 (2005) (citing Hillsborough Cty. v.
Automated Med. Labs., Inc., 471 U.S. 707, 715, 105 S.
Ct. 2371, 2376, 85 L.Ed.2d 714, 722-23 (1985)).
The Congress of the United States may expressly
pre-empt a state law “if the federal law contains
explicit pre-emptive language.” Salzer v. King Kong
Zoo, 242 N.C. App. 120, 123, 773 S.E.2d 548, 550
(2015) (internal quotation marks and citations
omitted). With respect to Plaintiffs’ public records
request, FERPA does not expressly pre-empt the
Public Records Act, as neither § 1232g(b)(6)(B) nor
any other provision of FERPA contains explicit
language stating it pre-empts state public records
laws. See id.
Defendants also argue UNC-CH is not required to
comply with Plaintiffs’ public records request under
the theory of federal “implicit pre-emption.” Implicit
pre-emption can occur through either “conflict” or
“field” pre-emption. Id. at 123-24, 773 S.E.2d at 551.
Field pre-emption occurs where Congress “intended to
foreclose any state regulation in the area, irrespective
of whether state law is consistent with federal
standards.” Oneok, ––– U.S. at ––––, 135 S. Ct. at
1595, 191 L.Ed.2d at 511 (citation and quotation
marks omitted). “In such situations, Congress has
forbidden the State to take action in the field that the
federal statute pre-empts.” Id. (emphasis omitted).
Field pre-emption occurs when the federal
government either “completely occupies a given field

63a
or an identifiable portion of it.” Pac. Gas & Elec. Co.
v. State Energy Res. Conservation & Dev. Comm’n,
461 U.S. 190, 212-13, 103 S. Ct. 1713, 1727, 75
L.Ed.2d 752, 770 (1983) (citation omitted).
The intent to displace state law altogether can
be inferred from a framework of regulation so
pervasive . . . that Congress left no room for the
States to supplement it or where there is a
federal interest . . . so dominant that the
federal system will be assumed to preclude
enforcement of state laws on the same subject.
Arizona v. United States, 567 U.S. 387, 399, 132 S. Ct.
2492, 2501, 183 L.Ed.2d 351, 369 (2012) (internal
quotations and citations omitted). “Field pre-emption
is wrought by a manifestation of congressional intent
to occupy an entire field such that even without a
federal rule on some particular matter within the
field, state regulation on that matter is pre-empted,
leaving it untouched by either state or federal law.”
Guyton v. FM Lending Servs., Inc., 199 N.C. App. 30,
44, 681 S.E.2d 465, 476 (2009) (citation omitted).
Here, FERPA contains no manifestation of
congressional intent to occupy the field of public
educational records and particularly those which are
expressly exempted from FERPA’s non-disclosure
rules. The plain language of § 1232g(b)(6)(B) does not
manifest such an intent. In looking to congressional
intent, the statements from the Congressional Record
of the U.S. Representative who introduced the
amendment that would be codified as § 1232g(b)(6)(B)

64a
of FERPA is salient and compelling. The stated intent
and purpose of § 1232g(b)(6)(B) is to:
[D]eal with the Family Educational Rights and
Privacy Act that was passed in 1974 that
basically has allowed universities, Federal[ly
funded] universities, to withhold the release of
names of students found by disciplinary
proceedings to have committed crimes[.] I
believe there should be a balance between one
student’s right of privacy to another student’s
right to know about a serious crime in his or
her college community. The Foley amendment
to the Higher Education Amendments Act of
1998 [P.L. 105-244] provides a well-balanced
solution to the problem. It would remove the
Federal protection that disciplinary records
enjoy and make reporting subject to the State
laws that apply.
144 Cong. Rec. H2,984, (daily ed. May 7, 1998)
(statement of sponsor Rep. Foley) (emphasis
supplied); see Zach Greenberg & Adam Goldstein,
Baking Common Sense into the FERPA Cake: How to
Meaningfully Protect Student Rights and the Public
Interest, 44 J. Legis. 22, 26 (2017).
No indication from the text of § 1232g(b)(6)(B) nor
within its legislative history supports the contention
that Congress intended to occupy the field of
educational records to such an extent that FERPA
would pre-empt state public records laws with respect
to public educational records that are expressly
exempted from FERPA’s protections.

65a
The legislative history shows Congress intended
that records exempted from FERPA under
§ 1232g(b)(6)(B) would be “subject to the State laws
that apply.” 144 Cong. Rec. H2,984, (daily ed. May 7,
1998) (statement of sponsor Rep. Foley). This intent
is plainly inconsistent with “[t]he intent to displace
state law.” Arizona, 567 U.S. at 399, 132 S. Ct. at
2501, 183 L.Ed. 2d at 369. FERPA does not pre-empt
the Public Records Law under the “field pre-emption”
theory. See id.
Defendants also assert implied pre-emption under
the “conflict pre-emption” theory. Conflict preemption occurs in two circumstances: (1) “where
compliance with both state and federal law is
impossible” and (2) “where the state law stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” Oneok, –––
U.S. at ––––, 135 S. Ct. at 1595, 191 L.Ed.2d at 517
(internal quotation marks and citation omitted).
With regard to the first type of conflict preemption, it is possible for UNC-CH to comply with
both § 1232g(b)(6)(B) and the Public Records Act.
Whereas § 1232g(b)(6)(B) allows UNC-CH to disclose
the records at issue without federal sanction, the
Public Records Act expressly requires the requested
records to be released. As discussed above, and
contrary to Defendants’ assertion, FERPA does not
expressly or impliedly grant educational institutions
the absolute discretion to decide whether to release
exempt educational records. See 20 U.S.C.
§ 1232g(b)(6)(B). Defendants would not violate

66a
§ 1232g(b)(6)(B) by disclosing and releasing the
records Plaintiffs requested in order to comply with
the Public Records Act.
With regard to the second type of conflict preemption Defendants assert, the Public Records Act
disclosure requirements do not “stand[ ] as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” See Oneok,
––– U.S. at ––––, 135 S. Ct. at 1595, 191 L.Ed.2d at
517. The plain text of § 1232g(b)(6)(B) permits
Defendants disclosure of the limited information
specifically listed therein. See 20 U.S.C. §
1232g(b)(6)(B). No indication in § 1232g(b)(6)(B) nor
elsewhere in FERPA supports the contention that
Congress established the objective of barring public
records requests of information that it expressly
exempted from FERPA’s non-disclosure provisions.
The legislative history of § 1232g(b)(6)(B)
indicates Congress’ intent and objective in amending
FERPA was to strike “a balance” between students’
privacy rights and other students’ and their parents’
rights to know about dangerous individuals in
campus communities. See 144 Cong. Rec. H2,984,
(daily ed. May 7, 1998) (statement of Rep. Foley).
Congress decided to strike this balance by “remov[ing]
the Federal protection that disciplinary records enjoy
and make reporting subject to the State laws that
apply.” Id. Compelling Defendants’ compliance with
the Public Records Act with regard to the limited and
exempted information Plaintiffs have requested does
not “stand[ ] as an obstacle to the accomplishment and

67a
execution of the full purposes and objectives of
Congress.” Oneok, ––– U.S. at ––––, 135 S. Ct. at
1595, 191 L.Ed. 2d at 517.
Defendants cite Fidelity Federal Savings and
Loan Ass’n v. de la Cuesta, 458 U.S. 141, 102 S. Ct.
3014, 73 L.Ed.2d 664 (1982), to support their preemption arguments. Fidelity Federal involved a
regulation issued by the Federal Home Loan Bank
Board (“FHLBB”) that permitted federally-chartered
savings and loan associations to exercise due-on-sale
clauses. 458 U.S. at 141, 102 S. Ct. at 3016-17, 73
L.Ed.2d at 664. The preamble to the regulation
provided “that the due-on-sale practices of federal
savings and loan associations shall be governed
‘exclusively by Federal law’ and that the association
‘shall not be bound by or subject to any conflicting
State law which imposes different . . . due-on-sale
requirements.’” Id. at 147, 102 S. Ct. at 3019, 73
L.Ed.2d at 671. California law limited mortgage
lenders’ exercise of due-on-sale clauses. Id. at 148-49,
102 S. Ct. at 3019-20, 73 L.Ed.2d at 672. California
homeowners sued Fidelity Federal Savings and Loan
Association for exercising the due-on-sale clauses in
violation of California law. Id.
The Supreme Court of the United States
determined the FHLBB’s regulation pre-empted
California law. Id. at 159, 102 S. Ct. at 3025-26, 73
L.Ed.2d at 679. Defendants cite this case for their
proposition, “[w]here Congress legislates to define the
discretion an organization may exercise, that
legislation preempts state law curtailing that

68a
discretion.” Contrary to Defendants’ assertion,
Fidelity Federal is not analogous to the situation
before us. The Supreme Court determined the
FHLBB’s
regulation
pre-empted
California’s
conflicting law because the preamble to the FHLBB
regulation expressly stated that federal savings and
loans would not be subject to any state laws that
imposed different requirements from federal laws. Id.
An additional FHLBB regulation stated, “the due-onsale practices of federal savings and loans ‘shall be
governed exclusively by the Board’s regulations in
preemption of and without regard to any limitations
imposed by state law on either their inclusion or
exercise.’” Id. (citation omitted).
Defendants also cite Andrews v. Federal Home
Loan Bank, 998 F.2d 214 (4th Cir. 1993), for the
proposition that where federal law allows for an
organization to exercise discretion, any state law
taking away that discretion is pre-empted. In
Andrews, the United States Court of Appeals for the
Fourth Circuit held that where federal law expressly
provided, “The directors of each Federal Home Loan
Bank . . . shall have power . . . to select, employ, and
fix the compensation of such officers, employees,
attorneys, and agents . . . and to dismiss at pleasure
such officers, employees, attorneys, and agents[,]” a
dismissed bank employee’s wrongful termination
claim under state law was pre-empted. 998 F.2d at
220 (emphasis in original) (citation omitted).
Unlike the express language of the federal statute
in Andrews, nothing in § 1232g(b)(6)(B) of FERPA

69a
purports to grant an educational institution express
discretion over the release of exempt student records.
To read § 1232g(b)(6)(B) as granting such discretion
would contravene the intent of Congress to preserve
or give states authority over disclosure of exempt
student disciplinary records. See 144 Cong. Rec.
H2,984, (daily ed. May 7, 1998) (statement of sponsor
Rep. Foley).
Fidelity Federal and Andrews are patently
distinguishable from the case at hand, because
neither § 1232g(b)(6)(B), any other provision of
FERPA, nor any relevant federal regulations
expressly or impliedly pre-empt state law to grant
educational institutions discretion over disclosure of
exempt student disciplinary records. See, e.g., 20
U.S.C. § 1232g(b)(6)(B).
Federal law does not pre-empt the Public Records
Act with regard to the specific limited information
sought in Plaintiffs’ public records request, which is
not otherwise prohibited from disclosure under
§ 1232g(b)(6)(B) of FERPA. Defendants have failed to
overcome the presumption against federal preemption and their arguments are overruled. See
Carolina Power & Light Co., 359 N.C. at 525, 614
S.E.2d at 287 (stating the rule of presumption against
federal pre-emption).
E. Policy Arguments
Defendants also assert numerous “policy
arguments” concerning the effects of potential
disclosure of the requested records at issue under

70a
Title IX. See 20 U.S.C. §§ 1681-1688. After concluding
that FERPA pre-empted the Public Records Act, the
trial court declined to address Defendants’ policy
arguments, stating, “[T]he Court has not considered
the policy reasons for UNC[-CH]’s exercise of
discretion, UNC[-CH]’s desire to protect and nurture
its students, or any other potentialities of disclosure.”
Defendants argue the release of the specific
records requested by Plaintiffs would interfere with
UNC-CH’s Title IX process for dealing with sexual
assault by: (1) deterring victims and witnesses from
coming forward and participating in UNC-CH’s Title
IX process; and, (2) by jeopardizing the safety of
alleged sexual assault perpetrators.
“‘It is critical to our system of government and the
expectation of our citizens that the courts not assume
the role of legislatures.’ Normally, questions
regarding public policy are for legislative
determination.” In re N.T., 214 N.C. App. 136, 144,
715 S.E.2d 183, 188 (2011) (quoting Cochrane v. City
of Charlotte, 148 N.C. App. 621, 628, 559 S.E.2d 260,
265 (2002)). We do not address the asserted merits of
Defendants’ policy arguments.
We note in passing, FERPA specifically mandates
that any disclosures “may include the name of any
other student, such as a victim or witness, only with
the written consent of that other student.” 20 U.S.C.
§ 1232g(b)(6)(C) (emphasis supplied).

71a
VI. Conclusion
The Public Records Act requires UNC-CH, a public
agency, to comply with Plaintiffs’ public records
request. FERPA does not prohibit the disclosure of
the limited information requested by Plaintiffs,
except for the dates of offenses. No indication from the
text of § 1232g(b)(6)(B) or within its legislative history
supports Defendants’ assertion that Congress
intended to occupy the field of educational records to
such an extent that FERPA pre-empts state public
records laws with respect to public educational
records that are expressly exempted from FERPA’s
protections. The legislative history of the 1998
amendments to FERPA shows Congress intended
that records exempted from FERPA under
§ 1232g(b)(6)(B) would be “subject to the State laws
that apply.” 144 Cong. Rec. H2,984, (daily ed. May 7,
1998) (statement of sponsor Rep. Foley).
FERPA expressly limits the educational records
release and disclosures to:
the final results of any disciplinary
proceeding—[and] (i) shall include only the
name of the student, the violation committed,
and any sanction imposed by the institution on
that student; and (ii) may include the name of
any other student, such as a victim or witness,
only with the written consent of that other
student.
20 U.S.C. § 1232g(b)(6)(B)-(C).

72a
Defendants must comply with Plaintiffs’ public
records request to release the student disciplinary
records at issue, as provided above. That portion of
the superior court’s order and judgment appealed
from, and as contrary to our holding, is reversed. This
cause is remanded to the superior court for further
proceedings as are necessary and consistent herewith.
It is so ordered.
AFFIRMED IN PART; REVERSED IN PART;
AND REMANDED.
Judges BRYANT and ELMORE concur.

73a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
STATE OF NORTH CAROLINA
COUNTY OF WAKE
16-CVS-14300
May 9, 2017
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
ORDER AND FINAL JUDGMENT
This matter was assigned under Tenth Judicial
District Civil Superior Court Rule 2.2 and came on for
hearing before the undersigned on April 6, 2017 on
the Plaintiffs’ Request for Declaratory Judgment The
Plaintiffs appeared through Hugh Stevens and Mike
Tadych of the law firm Stevens Martin Vaughn &
Tadych, PLLC. The Defendants appeared through
Special Deputy Attorney General Stephanie Brennan

74a
of the North Carolina Attorney General’s Office. The
issue before the Court was whether the Public
Records Act, N.C.G.S. §§ 1321 et seq., requires the
Defendants to disclose certain disciplinary records
sought by Plaintiffs concerning persons found to have
violated the University’s policy related to sexual
assaults and related misconduct at The University of
North Carolina at Chapel Hill (“UNC”).
Findings of Fact
The parties, through their respective counsel of
record, stipulated to the following factual statements,
which are adopted by the Court:
1. This action is brought pursuant to the North
Carolina Public Records Law, N.C. Gen. Stat. §§ 1321 et seq. and the North Carolina Uniform Declaratory
Judgments Act, N.C. Gen. Stat. §§ 1-253 et seq. The
plaintiffs are news organizations that regularly cover
The University of North Carolina at Chapel Hill
(“UNC”). The defendants, who are sued in their
official capacities, are the Chancellor and the Senior
Director of Public Records for UNC.
2. This action arises out of public records requests
made by the plaintiffs to UNC, including the request
set out in a letter dated September 30, 2016. That
letter asked UNC to provide “copies of all public
records made or received by The University of North
Carolina at Chapel Hill (‘the University’) in
connection with a person having been found
responsible for rape, sexual assault or any related or
lesser included sexual misconduct by the UNC Chapel

75a
Hill Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office.”
3. UNC responded to [the request] by a letter
dated October 28, 2016 and signed by Joel G. Curran,
UNC’s Vice Chancellor for Communications and
Public Affairs.
4. In subsequent conversations, including a
mediation conducted pursuant to N.C. Gen. Stat § 7A38.3E, the plaintiffs narrowed their request to
encompass records in the custody of UNC that include
(a) the name of any person who, since January 1,
2007, has been found responsible for rape, sexual
assault or any related or lesser included sexual
misconduct by the UNC Honor Court, the Committee
on Student Conduct, or the Equal Opportunity and
Compliance Office; (b) the date and nature of each
violation for which each such person found
responsible; and (c) the sanctions imposed on each
such person for each such violation.
5. UNC has records that contain information
sought by Plaintiffs in their narrowed request. Some
of the records relate to persons who are students, or
who were students when the records that relate to
them were created. UNC also has records that relate
to persons who are UNC employees, or who were UNC
employees when the records that relate to them were
created.

76a

Conclusions of Law
The Court makes the following conclusions of
law:
1. Plaintiffs seek records that are public records
as defined in N.C.G.S. § 132-1(a). These records are
the property of the people as expressed in N.C.G.S. §
132-1(b). However, while these records ordinarily are
obtainable by the people under the Public Records
Act, an exception exists where “otherwise specifically
provided by law.” N.C.G.S. § 132-1(b).
AS TO STUDENT RECORDS:
2. As to disciplinary records sought by Plaintiffs
concerning students, the Family Educational Rights
and Privacy Act (“FERPA”), 20 U.S.C. § 1232g,
otherwise specifically provides. Student disciplinary
records generally are deemed to be “educational
records” protected from public disclosure by FERPA.
DTH Publ’g Corp. v. Univ. of N.C., 128 N.C. App. 534,
540-42, 496 S.E.2d 8, 12-13 (1998); see also U.S. v.
Miami University, 294 F.3d 797 (6th Cir. 2002).
3. In 20 U.S.C. § 1232g(b)(6), FERPA grants the
University the discretion to determine whether to
release (1) the name of any student found
“responsible” under University policy of a “crime of
violence” or “nonforcible sex offense,” (2) the violation,
and (3) the sanction imposed. The University may
disclose (but is not required to disclose) this

77a
information only if the University determines that the
student violated the University’s rules or policies. Id.
§ 1232g(b)(6)(B). The information that may be
disclosed at the University’s discretion is limited to
“the final results of any disciplinary proceeding,”
which must include “only the name of the student, the
violation committed, and any sanction imposed by the
institution
on
that
student.”
20
U.S.C.
§ 1232g(b)(6)(C)(i). 20 U.S.C. § 1232g(b)(6) provides,
in relevant part:
(B) Nothing in this section shall be construed
to prohibit an institution of postsecondary
education from disclosing the final results of
any disciplinary proceeding conducted by such
institution against a student who is an alleged
perpetrator of any crime of violence (as that
term is defined in section 16 of Title 18), or a
nonforcible sex offense, if the institution
determines as a result of that disciplinary
proceeding that the student committed a
violation of the institution’s rules or policies
with respect to such crime or offense.
(C) For the purpose of this paragraph, the final
results of any disciplinary proceeding—
(i) shall include only the name of the
student, the violation committed, and any
sanction imposed by the institution on that
student; and

78a
(ii) may include the name of any other
student, such as a victim or witness, only with
the written consent of that other student.
4. The Supremacy Clause provides that the laws
of the United States, the Constitution, and treaties
“shall be the supreme Law of the Land.” U.S. Const.
art. VI, cl. 2. Congress can preempt a state law
through federal legislation either expressly or
implicitly. E.g., Oneok, Inc. v. Learjet, Inc., 135 S. Ct.
1591, 1595, 191 L. Ed. 2d 511, 517 (2015). Implicit
preemption can be accomplished through “conflict” or
“field preemption.” Id. In either situation, federal law
controls over state law.
5. Field preemption occurs where Congress
“intended to foreclose any state regulation in the area,
irrespective of whether state law is consistent or
inconsistent with federal standards.” Id. (internal
quotes removed). “In such situations, Congress has
forbidden the State to take action in the field that the
federal statute pre-empts.” Id. Field preemption
occurs when the federal government either
“completely occupies a given field or an identifiable
portion of it.” Pac. Gas & Elec. Co. v. State Energy Res.
Conservation & Dev. Comm’n, 461 U.S. 190, 212-13,
103 S. Ct. 1713, 1726-27 (1983).
6.
Conflict
preemption
occurs
in
two
circumstances: (1) “where compliance with both state
and federal law is impossible” and (2) “where the state
law stands as an obstacle to the accomplishment and
execution of the full purposes and objectives of

79a
Congress.” Oneok, Inc., 135 S. Ct. at 1595, 191 L. Ed.
2d at 517 (internal quotes removed).
7. To the extent the Public Records Act requires
disclosure of the requested records, it is implicitly
preempted by federal law through both field and
conflict preemption. Field preemption applies because
Congress has spoken in the area of student
educational records, including disciplinary records, in
a blanket effort to address the confidentiality and
privacy of such records.
8. Conflict preemption also applies because it is
not possible for Defendants to comply with federal law
by exercising the University’s discretion to determine
whether to disclose information and also to comply
with mandatory disclosure under state law. Strict
application of the Public Records Act would not
permit Defendants to act in accordance with federal
law. Federal law makes disclosure of the information
in Section 1232g(b)(6)(B) permissive – it neither
requires nor prevents disclosure. But federal law also
places discretion squarely in the hands of the
University concerning disclosure. Overlying state law
to require disclosure in every case would not permit
the University to comply with federal law, because it
would substitute mandatory disclosure in every case
for the application of reasoned discretion required by
federal law. In order to comply with federal law, the
University must exercise discretion.
9. The reasons and justification for the
University’s exercise of discretion are not considered
-- and need not be considered -- by the Court in its

80a
determination of the legal issues at hand. In making
these findings of fact and conclusions of law and
arriving at this decision and Order, therefore, the
Court has not considered the policy reasons for UNC’s
exercise of discretion, UNC’s desire to protect and
nurture its students, or any other potentialities of
disclosure.
10. Because Congress has spoken on this issue
through FERPA and FERPA “otherwise specifically
provide[s],” the records sought by Plaintiffs
concerning students are not obtainable by the people.
AS TO EMPLOYEE RECORDS:
11. As to disciplinary records sought by Plaintiffs
involving employees, the State Human Resources Act
provides that, except as specifically provided,
personnel records of UNC employees are confidential
and are not subject to the Public Records Act.
N.C.G.S. § 126-22.
12. Under the State Human Resources Act, certain
specified information about a state employee is public,
including: “Date and type of each dismissal,
suspension, or demotion for disciplinary reasons . . . .
If the disciplinary action was a dismissal, a copy of the
written notice of the final decision of the head of the
department setting forth the specific acts or omissions
that are the basis of the dismissal.” N.C.G.S. § 12623(a)(l1). Otherwise, “[a]ll other information
contained in a personnel file is confidential” and not
subject to public disclosure. N.C.G.S. § 126-24.

81a
13. Except as to the information specifically made
public by N.C.G.S. § 126-23, therefore, the State
Human Resources Act “otherwise specifically
provide[s],” and the records sought by Plaintiffs
concerning employees are not public records
obtainable by the people.
THEREFORE, it is hereby ORDERED as follows:
1. Plaintiffs’ request for declaratory judgment and
other relief is DENIED and judgment is GRANTED
in favor of Defendants, except as to employee records
that are designated as public under N.C.G.S. § 12623, as specified below. As to the records sought by
Plaintiffs concerning discipline of students,
Defendants need not produce such records.
2. As to records sought concerning discipline of
employees, the University shall provide Plaintiff with
records setting forth the “date and type of each
dismissal, suspension or demotion for disciplinary
reasons” for any employee found responsible under
University policy for rape, sexual assault or any
related or lesser included sexual misconduct by the
UNC Honor Court, the Committee on Student
Conduct, or the Equal Opportunity and Compliance
Office from January 1, 2007 through the date of this
Order. If the disciplinary action was a dismissal, the
University shall also provide a copy of the dismissal
letter. The University need not provide any FERPA
protected student information in these records.

82a
3. Because Plaintiffs did not substantially prevail
pursuant to N.C.G.S. § 132-9(c), Plaintiffs’ request for
attorneys’ fees is DENIED.
This ORDER disposes of all issues in this case and
the Court certifies that there is no just reason for
delay as to entry of final judgment. The Court
therefore enters FINAL JUDGMENT. IT IS SO
ORDERED.
/s/ Allen Baddour
The Honorable Allen Baddour
Superior Court Judge

83a
United States Constitution
Article VI
Clause 2
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and
all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

84a
United States Code
Title 20
Education
Chapter 31
General Provisions Concerning Education
Subchapter III
General Requirements and Conditions Concerning
Operation and Administration of Education
Programs: General Authority of Secretary
Part 4
Records; Privacy; Limitations on Withholding
Federal Funds
§ 1232g Family educational and privacy rights
...
(b)

Release of education records; parental consent
requirement; exceptions; compliance with
judicial orders and subpoenas; audit and
evaluation of federally-supported education
programs; recordkeeping
...
(6) . . .

85a
(B)

Nothing in this section shall be
construed to prohibit an institution of
postsecondary education from disclosing
the final results of any disciplinary
proceeding
conducted
by
such
institution against a student who is an
alleged perpetrator of any crime of
violence (as that term is defined in
section 16 of Title 18), or a nonforcible
sex offense, if the institution determines
as a result of that disciplinary
proceeding that the student committed a
violation of the institution’s rules or
policies with respect to such crime or
offense.

86a
North Carolina General Statutes
Chapter 132
Public Records
§ 132-1

“Public records” defined

...
(b)

The public records and public information
compiled by the agencies of North Carolina
government or its subdivisions are the property
of the people. Therefore, it is the policy of this
State that the people may obtain copies of their
public records and public information free or at
minimal cost unless otherwise specifically
provided by law. As used herein, “minimal cost”
shall mean the actual cost of reproducing the
public record or public information.

87a
Code of Federal Regulations
Title 34
Education
Subtitle A
Office of the Secretary, Department of Education
Part 99
Family Educational Rights and Privacy
Subpart D
May an Educational Agency or Institution Disclose
Personally Identifiable Information from
Education Records?
§ 99.31
(a)

Under what conditions is prior consent not
required to disclose information?

An educational agency or institution may
disclose personally identifiable information
from an education record of a student without
the consent required by § 99.30 if the disclosure
meets one or more of the following conditions:
...
(12) The disclosure is to the parent of a
student who is not an eligible student or to the
student.
...

88a
(14)
(i)

...

The disclosure, subject to the
requirements in § 99.39, is in
connection with a disciplinary
proceeding at an institution of
postsecondary
education.
The
institution must not disclose the final
results of the disciplinary proceeding
unless it determines that—
(A)

The student is an alleged
perpetrator of a crime of
violence or non-forcible sex
offense; and

(B)

With respect to the allegation
made against him or her, the
student has committed a
violation of the institution’s
rules or policies.

(ii)

The institution may not disclose the
name of any other student, including
a victim or witness, without the prior
written consent of the other student.

(iii)

This section applies only to
disciplinary proceedings in which the
final results were reached on or after
October 7, 1998.

89a
(d)

Paragraphs (a) and (b) of this section do not
require an educational agency or institution or
any other party to disclose education records or
information from education records to any
party except for parties under paragraph
(a)(12) of this section.

90a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
STATE OF NORTH CAROLINA
COUNTY OF WAKE
16-CVS-14300
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
AFFIDAVIT OF CHRISTIANE HURT
Christiane Hurt, first being duly sworn, hereby
deposes and says:
Background
1. I am more than eighteen (18) years of age and
am competent to give testimony in this matter.
2. I currently serve as Assistant Vice Chancellor
for Student Affairs and Chief of Staff to the Vice
Chancellor for Student Affairs at The University of

91a
North Carolina at Chapel Hill (“University”) and have
served in that role since July 1, 2014. In this capacity,
I am responsible for serving as the liaison between
Student Affairs and the University’s Title IX staff
members, supporting and representing the Vice
Chancellor on University initiatives and matters that
affect students, and overseeing communications for
Student Affairs.
3. In my role, I am aware that the University has
accepted substantial federal funding and that this
funding is critically important to the University.
4. Prior to serving as the Assistant Vice
Chancellor for Student Affairs and Chief of Staff, I
served as the Director of the Carolina Women’s
Center at the University from January 2013 to July
31, 2016. In this role, I advocated for a wide-range of
gender-equity issues, including violence prevention. I
also assessed campus needs and developed responsive
educational programming.
5. From May 2013 through December 2013, I
served as the University’s Interim Title IX
Coordinator. In this capacity, I provided oversight
and leadership related to Title IX compliance and
oversaw the University’s response to an investigation
of reports alleging gender-based discrimination,
harassment, and sexual assault.
6. I also served as Chair of the University’s Title
IX Policy Task Force, a 22-person committee
comprised of students, faculty, staff, and community
members who met for more than a year to recommend

92a
revisions to the University’s Title IX policy and
process for addressing reports of discrimination,
harassment, and sexual violence involving students.
7. Prior to the adoption of the current University
Policy, the University had another policy in place to
address prohibited harassment, including sexual
misconduct, and discrimination. That policy was
initially effective June 24, 2008 and was revised
several times. Exhibit 11 is a true and correct copy of
that policy as revised by amendments through May 1,
2013.
8. For the 20 years prior to joining the University,
I held administrative positions with the National
Sexual Assault Resource Sharing Project, the
Washington Coalition of Sexual Assault Programs,
and the Orange County Rape Crisis Center.
9. I have participated in numerous training
programs regarding Title IX compliance, traumainformed investigation of Title IX reports, the Family
Educational Rights and Privacy Act of 1972
(“FERPA”), and related topics. These training
programs have been sponsored by the National
Association of College and University Attorneys, by
the Association of Title IX Administrators, and by
leading Title IX experts Gina Maisto Smith and Leslie
Gomez, partners at the law firm of Cozen O’Connor.
10.
Through my professional experience, I have
developed expertise regarding best practices in
responding to the needs of victims of sexual assault.

93a
11.
I strongly believe that the release of either
Title IX files or the identities of individuals who have
been found responsible (“Responding Parties”)
through the University’s Title IX process would
irrevocably harm both the students who report
alleged
assaults
(“Reporting
Parties”)
and
Responding Parties.
12.
I also strongly believe that the release of
identities of individuals and/or Title IX records would
irrevocably damage the efficacy of the University’s
Title IX process.
Consequences for Reporting Parties
13.
Reporting Parties want control over their
story, and they want to be sure information they
provide regarding the sexual violence they have
experienced is used exactly as they intend. Reporting
Parties want privacy before, during, and after the
investigation and adjudication process. They want to
[know] how information is shared, what information
will be used, and who has access to that information
at every step of the process.
14.
During meetings of the University’s Title IX
Policy Task Force, we addressed the sharing of
information, and it was clear that Reporting Parties
needed definitive answers about reports of sexual
violence—where these reports were going and who
accesses them.
15.
In all of these settings, Reporting Parties
consistently have concerns about privacy, and the

94a
University, in turn, repeatedly must assure them that
we take their privacy seriously.
16.
In my experience, survivors of sexual
assault usually do not come forward if they even
suspect that they will not have control over own story.
This fact was a significant driver in the University’s
development of confidential campus resources, which
are designated individuals and offices at the
University who help connect survivors to resources
and to support options while guaranteeing their
confidentiality. These resources can be effective, in
large part, because they are able to promise that they
will not share information about any reported
incident of sexual assault with a single other person
or office. These resources are critically important to
our campus community.
17.
Survivors’
desire
for
control
and
confidentiality is also a significant reason that many
choose to access the University’s Title IX process who
do not elect to be involved with criminal proceedings.
18.
As the University has developed its Title IX
policy and process, we have taken into account that
students do not want other individuals, particularly
other students, to know about what they have
experienced. As evidence of this deeply-held
sentiment, the student representatives on the Title IX
Policy Task Force strongly lobbied to remove students
from the hearing panels that adjudicate Title IX
reports. This decision to do so was made because, for
students, privacy and confidentiality were the most
significant priorities in the development of a policy

95a
that would
students.

address

sexual

assaults

involving

19.
We know that in 85 or 90 percent—if not
100 percent—of the sexual violence reports the
University receives, the parties are known to each
other and frequently have been in a relationship with
each other. Their friend groups therefore know their
connections. Reporting Parties are often concerned
that if the identity of the Responding Party is made
known, it will be easy to identify Reporting Parties,
and their narrative will no longer be within their
control. Reporting Parties generally do not want the
stigma of being a sexual assault victim unless they
have chosen to come forward. But they absolutely do
not want to be outed, which would be an entirely
disempowering event.
20.
My primary concern with the possibility of
releasing the identities of Responding Parties to
media outlets is that this will create a very significant
chilling effect upon reporting and seeking help. As a
result, students who have experienced sexual violence
will not come forward for help or adjudication. This
would not only prevent the University from assisting
Reporting Parties by providing information about
options and support resources, but it would also
prevent the University from learning about potential
serial offenders who pose a danger to our campus
community.
21.
The very real potential that the identities of
Reporting Parties could be exposed publicly through
the disclose of the names of Responding Parties would

96a
compound the impact of the trauma that Reporting
Parties have experienced in a way that I find
absolutely untenable.
22.
A Reporting Party’s confidentiality and
privacy is breached if information about the case and
the reported conduct is made public without the
Reporting Party’s consent—regardless of whether the
Reporting Party’s name is redacted.
Consequences for Responding Parties
23.
I am additionally concerned about the harm
Responding Parties would experience as a result of
public exposure. We have seen instances when once
the identity of a Responding Party becomes known to
our community, the public exacts retribution. If a
Responding Party has legitimately served their
sanction and is no longer a threat to the community
but is harassed by the community because of a past
violation, that does not help the Responding Party
reintegrate into the University. These Responding
Parties, themselves, can become victims of
harassment.
24.
During the meetings of the Title IX Policy
Task Force, the group intentionally focused on
developing a restorative process. Releasing the names
of Responding Parties drives us far away from that
restorative place. Our community wanted a process
where we allowed for healing and where we allowed
for as much control by Reporting Parties as possible.
Releasing the names of Responding Parties would
potentially brand people as pariahs and make it

97a
unsafe for them to be at the University even if a
sanction permits their presence.
Conclusion
23 [sic].
I strongly oppose the possibility of
having the University release to the news media the
names of Responding Parties in our Title IX process
because I believe that doing so will have irreparable
and significant consequences for both Reporting and
Responding Parties and for the University’s Title IX
Process.
24 [sic].
I understand and appreciate the
desire to hold the University accountable for
addressing sexual violence, to learn whether we are
doing what we say we are doing, to understand
whether the sanctions we impose are stiff and
significant. But the news media does not have to
obtain the identities of Responding Parties or specific
investigation files to evaluate the University’s
handling of sexual assault reports. Instead, the news
media can assess the aggregate, de-identified data the
University regularly releases about its Title IX
process and outcomes and could conduct interviews
with relevant University officials to learn more about
the Title IX operation.
25 [sic].
Whether the name of a Responding
Party is released to the public or to the news media
should be the decision of the Reporting Party. The
University should not be required to usurp the
discretion of survivors in making this determination.

98a
Further affiant sayeth not.
[SIGNATURE PAGE FOLLOWS]
This the 3rd of April, 2017.
/s/ Christiane Hurt
Christiane Hurt
Signed and sworn before me this
the 3rd day of April, 2017. [NOTARY SEAL]
/s/ Justin A. Moody
Notary Public
My Commission Expires: 12-13-2020

99a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
STATE OF NORTH CAROLINA
COUNTY OF WAKE
16-CVS-14300
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
AFFIDAVIT OF KATHERINE B. NOLAN
Katherine B. Nolan, first being duly sworn, hereby
deposes and says:
Background
1. I am more than eighteen (18) years of age and
competent to give testimony in this matter.
2. I am the Interim Title IX Compliance
Coordinator at The University of North Carolina at
Chapel Hill (“University”) and have served in that

100a
role since November 2014. In this capacity, I
coordinate the University’s response to all reports of
sex and gender discrimination, including sexual
harassment, sexual assault, interpersonal violence,
stalking, sexual exploitation, and related retaliation.
I also routinely interact with students to explain the
University’s process for addressing reports of sexual
misconduct, to discuss available support and resource
options, to answer questions, and to address concerns.
3. Prior to serving as the Interim Title IX
Compliance Coordinator at the University, I served as
the Title IX Coordinator at The University of
Alabama from May 2012 through May 2013.
4. I received my Juris Doctorate from the
University in May 2008.
5. I have participated in numerous training
programs regarding Title IX compliance, traumainformed investigation of Title IX reports, the Family
Educational Rights and Privacy Act of 1972
(“FERPA”), and related topics. These training
programs have been sponsored by the National
Association of College and University Attorneys, by
the Association of Title IX Administrators, by United
Educators, and by leading Title IX experts Gina
Maisto Smith and Leslie Gomez, partners at the law
firm of Cozen O’Connor.
The University’s Title IX Responsibilities
6. Title IX of the Education Amendments of 1972,
20 U.S.C. sections 1681 et seq., and its implementing

101a
regulations, 34 C.F.R. Part 106, states that “No
person in the United States shall, on the basis of sex,
be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under
any education program or activity receiving Federal
financial assistance.”
7. The U.S. Department of Education’s Office for
Civil Rights (“OCR”), in several guidance documents
interpreting Title IX, including most significantly in
its April 4, 2011 “Dear Colleague” letter, has made
clear that “[s]exual harassment of students, which
includes acts of sexual violence, is a form of sex
discrimination prohibited by Title IX,” Russlynn Ali,
“Dear Colleague” Letter, U.S. Dep’t of Educ. (April 4,
2011),https://www2.ed.gov/about/offices/list/ocr/letter
s/colleague-201104.pdf, at 1. Exhibit 1 is a true and
correct copy of the Dear Colleague Letter.
8. In 2014, OCR issued further guidance in its
“Questions and Answers on Title IX and Sexual
Violence,” U.S. Dep’t of Educ. (April 29, 2014),
http://www2.ed.gov/about/offices/list/ocr/docs/qa201404-title-ix.pdf. Exhibit 2 is a true and correct
copy of OCR’s Q&A.
9. OCR’s “Dear Colleague” Letter states that
regardless of whether a college or university receives
a complaint, “a school that knows, or reasonably
should know, about possible harassment must
promptly investigate what occurred and then take
appropriate steps to resolve the situation.” “Dear
Colleague,” at 4.

102a
10.
Additionally, in order for colleges and
universities to comply with Title IX, institutions must
publish a notice of nondiscrimination, designate a
Title IX Coordinator, and adopt and publish grievance
procedures.
11.
Specifically with respect to grievance
procedures, the “Dear Colleague” Letter requires that
the University:
a. Conduct “adequate, reliable, and
impartial investigations of complaints” which
includes the opportunity for the parties to present
witnesses and other evidence;
b. Provide both parties with similar and
timely access to the evidence that will be used at a
hearing;
c. Employ a “preponderance of the
evidence” standard for determining whether an
accused student has committed a violation of Title IX;
d. Assure that all individuals involved in
the investigation, adjudication, and resolution of Title
IX complaints have adequate training;
e. Provide both parties simultaneous
notice of the outcome of a complaint; and
f. Provide the parties with identical
opportunities to appeal the determination.
12.
In order to implement the requirements of
Title IX as articulated in the “Dear Colleague” Letter,

103a
the University instituted a Policy on Prohibited
Discrimination,
Harassment,
and
Related
Misconduct (“University Policy”). Exhibit 3 is a true
and correct copy of the University Policy.
13.
The University also adopted procedures for
implementing the policy. There are procedures for the
reporting party and procedures for the responding
party. Exhibit 4 is a true and correct copy of the
various procedures used, depending on the status of
the parties.
14.
A 22-person task force comprised of student,
faculty, staff, and community members met for more
than a year to develop recommendations which would
ultimately form the basis of the current University
Policy. The University consulted with national
experts in developing the policy, and the policy is
considered a national model.
15.
The University Policy (Ex. 3) and
Procedures (Ex. 4) describe support and resources
available to reporting parties and responding parties;
interim protective measures to address the safety
concerns of reporting parties; processes for
investigation and adjudication; and potential
sanctions and remedies.
16.
The Equal Opportunity and Compliance
Office (“EOC Office”), is the designated office to
receive reports of sexual harassment, including
sexual violence. In many cases we facilitate support
services such as implementing accommodations,
interim measures, and connecting students to other

104a
services and support on campus and in the
community.
17.
Consistent with Title IX and the University
Policy, when the University receives a report of sexual
violence or when the University has actual or
constructive knowledge of sexual violence, the EOC
Office evaluates all available information as well as
the wishes of the student who reported the sexual
assault (“Reporting Party”) to determine how to
proceed.
18.
In addition, where the Responding Party is
a student, our office immediately refers cases
involving violence to the Emergency Evaluation and
Action Committee (“EEAC”) to determine whether
the Responding Party poses a serious threat of
disruption to the academic process or a continuing
danger to members of the University community or
University property. The EEAC has broad authority
to consider relevant safety concerns and take
appropriate measures, including suspension from the
campus and all student activities. Exhibit 5 is a true
and correct copy of the University’s EEAC Policy and
Procedures.
19.
In the event that the EOC Office or Title IX
Coordinator determines that an investigation is
warranted, an investigator designated by EOC or the
Title IX Coordinator performs the following tasks:
a. Notifies the parties that the matter will
proceed to investigation;

105a
b. Conducts interviews with the Reporting
Party and the alleged perpetrator (“Responding
Party”);
c. Prepares statements based upon the
interviews of the Reporting and Responding Party
and allows each party to review and edit their
interview statement;
d. Gathers evidence relevant to the
allegations, which may include text messages, email
messages, social media posts, photographs, and
security camera video footage[;]
e. Conducts interviews with all relevant
witnesses;
f. Reviews any pertinent medical records,
including any available reports and photographs
completed as part of a sexual assault examination;
g. Prepares a draft report of the
investigator’s factual findings, which the parties have
the opportunity to review and provide comment on;
h. Communicates and coordinates with law
enforcement when appropriate; and
i. Issues a final investigation report which
may contain a determination of responsibility based
upon a preponderance of the evidence standard and a
recommended sanction and remedy.
20.
As set forth in Exhibits 3 and 4, some cases
are resolved at the investigation phase, but others

106a
may proceed to a hearing. Regardless of the manner
of resolution, a Responding Party may choose to
accept responsibility at any stage in the process.
21.
Parties’ appeal rights are set forth in
Exhibit 4, University Procedures.
The University’s Title IX Investigation Files
22.
Given the thorough nature of the
investigations the EOC Office conducts, the file that
corresponds to an investigation is typically quite
voluminous and detailed. That file often contains the
following records:
a. Initial report received from Reporting
Party;
b. Summaries of interviews conducted with
the Reporting and Responding Parties;
c. Summaries of interviews conducted with
witnesses;
d. Text messages, email messages, social
media posts, photographs, and security camera
footage provided by the Reporting Party, the
Responding Party, and/or witnesses;
e. Correspondence between the parties
and the witnesses;
f. Medical records related to the Reporting
Party, including information derived from a sexual
assault examination;

107a
g. A report of the sexual assault nurse
examiner, which typically describes any injuries the
Reporting Party has suffered, including bruising or
tearing of the Reporting Party’s vagina;
h. Photographs taken during a sexual
assault examination of the Reporting Party, including
of the Reporting Party’s vagina;
i. Information from law enforcement if
applicable;
j. Drafts of the EOC Investigator’s report;
and
k. The final investigation report of the
EOC Investigator.
23.
These case files contain very personal and
sensitive information about the parties and the
witnesses. As such, we employ a number of security
precautions to assure that these files remain
confidential and are not inappropriately accessed.
These files are accessed on computers that are
password-protected. To the extent these computers
are portable (i.e., laptops), these computers are
encrypted. In addition, the files are stored on a secure
server that is accessible only to individuals within the
EOC Office who have a legitimate need to know the
information contained within these files. Moreover,
the computers that access the secure server are
subject to regular security scans that identify
potential vulnerabilities. Finally, our physical office
space is locked at all times and is accessible only to

108a
those who have the entry code to unlock the door or to
those with scheduled appointments.
24.
Many of these files contain the medical
records describing the condition and injuries
sustained by the Reporting Parties. These files often
contain photographs of these injuries, including
pictures of the Reporting Party’s vagina.
25.
Additionally, these files contain the
interview statements of the parties and witnesses,
which often reference specific, identifying details such
as the names of the student organizations to which
they belong (e.g., Greek organizations); where they
live; where they are from; their relationship to one
another; the courses they take; the location and date
where the alleged incident occurred; what they were
wearing; and other details, the sum total of which
may render the statement identifiable even if the
identity of the party or witness were redacted.
26.
Participants in the Title IX process are
asked to maintain confidentiality during the process
to protect the integrity of the proceedings.
Consequences for Reporting Parties
27.
Based upon my work and experience, I
believe that releasing any of these records and/or the
identities of Responding Parties who have been found
responsible for sexual assault and other forms of
sexual misconduct through the University’s Title IX
process will have a number of very negative and very
serious consequences.

109a
28.
Privacy and confidentiality are of the
utmost importance to the vast majority of the
Reporting Parties with whom I have interacted at the
University. They often struggle with the decision to
even tell someone that they have been assaulted.
Often they do not want the alleged perpetrator to
know that they have reported an incident, but come
to our office to seek support, resources, and
accommodations.
29.
In many instances, Reporting Parties
request that we promise not to share their name with
the Responding Party during an investigation or
ultimately decide that they do not want to move
forward with an investigation precisely because they
do not want their identities to be known to anyone
else.
30.
If we had to tell Reporting Parties that the
name of the Responding Party may ultimately be
shared with the news media, I am confident that a
number of Reporting Parties would never even
contact us for assistance. Additionally, if potential
Reporting Parties preemptively see others names in
the media, they may never walk in the door to seek
help for fear of media exposure. As a result, the
University would not be able to provide Reporting
Parties with critical support and resources and to
discuss with them their options for pursuing
resolution. Additionally, the University’s ability to
investigate reports of sexual violence and to prevent
future instances of sexual assault would be
compromised.

110a
31.
I am also concerned that if the University
were to publicly identify a Responding Party, the
identity of the Reporting Party would easily become
known to our campus community. In my experience
reviewing and responding to reports of sexual
violence, I have found that most sexual assaults are
perpetrated by people the Reporting Party knows. As
a result, the identity of someone found responsible for
sexual assault will often be an individual in the
Reporting Party’s friend group or someone others
might recognize as a romantic partner of the
Reporting Party.
32.
Additionally, if the University released the
identity of a Responding Party to the news media, the
Responding Party may feel the need to defend himself
or herself publicly and, in doing so, may specifically
identify the Reporting Party who initiated the
investigation.
33.
The likelihood that a Reporting Party’s
identity would become public knowledge is something
that a Reporting Party does not currently anticipate
when they walk in the door to report their assault.
The University cannot prevent a Responding Party
from speaking publicly and disclosing the identity of
the Reporting Party. In cases in which the identities
of Reporting Parties have become known publicly, we
are aware that these Reporting Parties have received
unwanted harassment and/or threats of violence.
34.
Reporting Parties currently maintain the
ability to share their story with the news media and
to name their alleged perpetrator, and I am aware of

111a
this having occurred. This decision should always be
at the discretion of the Reporting Party and not an
automatic practice of the University.
35.
Many Reporting Parties elect the
University Title IX process over the criminal process
because of privacy and confidentiality concerns. The
criminal process is part of the public domain. By
contrast, in the University process, we can better
maintain the privacy of Reporting Parties. I therefore
think it is critical for the University to err on the side
of being protective of the Reporting Parties who come
forward seeking a more private process through
which to address an incident of sexual violence.
Consequences for Responding Parties
36.
Title IX confers upon the University the
responsibility to protect all of our students from
retaliation associated with the investigation of
reports of sexual assault. I am deeply concerned about
our ability to prevent Responding Parties from
experiencing retaliation if their names become public.
37.
In the few cases in which the identities of
Responding Parties have become known publicly, we
are aware that these Responding Parties have
received threats of violence and have feared for their
safety.
38.
I am also concerned that if the University
were forced to release the names of Responding
Parties to the news media, Responding Parties would
refuse to participate in our investigations. As a result,

112a
the University’s investigation could be delayed or
stymied altogether, which in turn would negatively
affect the Reporting Party and add risk to the greater
University community.
39.
Additionally, there have been a number of
occasions when Responding Parties have accepted
responsibility for the alleged conduct. This has
occurred more often than we anticipated and has
benefitted Reporting Parties because it relieves them
from having to endure a hearing and/or an appeals
process. If, however, Responding Parties knew that
their names would be shared with the news media in
the event that they accepted responsibility for their
conduct, I anticipate that they would no longer be
willing to admit the allegations and accept
responsibility.
40.
It is also important to note that the
University’s Title IX investigation and adjudication
process is much different than the criminal process.
As
previously
described,
individuals
found
responsible through our Title IX process are subjected
to the lowest standard of proof (i.e., preponderance of
the evidence). Many are close cases that tum on
complex issues of capacity and consent. As a result,
the conclusion that an individual violated our
University policy is a far different outcome than a
judicial determination that in individual committed a
crime. Yet the release of the identity of a Responding
Party could subject the Responding Party to
consequences far greater than those imposed by the
University process.

113a
Consequences for Witness Participation
41.
In addition to potentially exposing the
identities of Reporting Parties, I am concerned that
releasing the names of Responding Parties could
implicate the witnesses who participate in an
investigation.
42.
I believe that if our students knew that the
names of Responding Parties would be disclosed to
the news media, they would be less likely to agree to
be interviewed as part of our process because the
media attention would necessarily elevate the risk of
their own exposure and the potential for retaliation
as a result of their participation in an investigation.
43.
We need people to participate in our process
because we want to gather all of the information and
evidence we can obtain so we can arrive at an
informed and just outcome. The University has no
power to compel witnesses to participate in the
process.
44.
As previously noted, in my experience, most
incidents of assault happen at parties or in situations
where Responding Parties are present with their
friend groups. During the course of an investigation,
my office will routinely interview friends of the
Responding Party to gather information relevant to
the allegations. I fear that if witnesses knew their
identities could be deduced from the disclosure of the
names of Responding Parties, witnesses would refuse
to participate in an investigation due to fear of’

114a
alienation and consternation from the Responding
Party or their friend group.
45.
Currently, witnesses sometimes decline to
participate in an investigation for fear that they will
be ostracized. For example, members of small and
tight-knit communities of students (e.g., studentathletes, the Greek system, small cohorts in graduate
and professional programs, housing communities) are
generally reluctant to risk alienating their friends by
participating in investigations. Often these witnesses
do not want their names referenced in our
investigation reports and instead request anonymity.
Were we to indicate that information regarding an
investigation could ultimately be public, I am
concerned that witness participation would decline
even further.
Conclusion
46.
The release of the identities of Responding
Parties in our Title IX process to the news media
would have grave and irreversible consequences for
the Reporting Parties, Responding Parties, and
witnesses who participate in our Title IX
investigations.
47.
If required to disclose the names of
Responding Patties, my experience and training
inform me and my opinion based on my training and
experience is that Reporting Parties will no longer
access our process and take advantage of the support
and resources the University can and does provide. It
is also my opinion based on my experience and

115a
training that Responding Parties would face
retaliation if their identities were publicly available.
Finally, my experience and training inform me and it
is my opinion that both Responding Parties and
witnesses would refuse to participate in our
investigations process, which would jeopardize our
ability to address allegations of sexual violence,
redress the effects of any such incidents, and prevent
their recurrence.
Further affiant sayeth not.
[SIGNATURE PAGE FOLLOWS]
This the 31st of March, 2017.
/s/ Katherine B. Nolan
Katherine B. Nolan
Signed and sworn before me this
the 31st day of March, 2017. [NOTARY SEAL]
/s/ Justin A. Moody
Notary Public
My Commission Expires: 12-13-2020

116a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
STATE OF NORTH CAROLINA
COUNTY OF WAKE
16-CVS-14300
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
AFFIDAVIT OF EW QUIMBAYA-WINSHIP
Ew Quimbaya-Winship, first being duly sworn,
hereby deposes and says:
Background
1. I am more than eighteen (18) years of age and
competent to give testimony in this matter.
2. I am the Student Complaint/Deputy Title IX
Coordinator at The University of North Carolina at
Chapel Hill (“University”) and have served in that

117a
role since Spring 2013. In this capacity, I am the
initial point of contact for students who wish to report
an incident of discrimination or harassment,
including sexual assault or sexual violence
(“Reporting Parties”). I am also responsible for
advising Reporting Parties about available support
options. Additionally, I provide information to
accused students (“Responding Parties”) about the
University’s investigation and adjudication process
and about available support resources.
3. Prior to serving as the Student Complaint/
Deputy Title IX Coordinator at the University, I
served as Title IX Co-Coordinator and Director of the
RISE Program at Warren Wilson College in Asheville,
North Carolina from Summer 2011 to Spring 2013.
The RISE Program was a sexual assault and
interpersonal violence program that offered crisis
response services and prevention education
programming. Additionally, I have presented at
Department of Justice conferences on various
prevention education programs provided at Rochester
Institute of Technology (“RIT”). From the Fall of 2002
to the Fall 2008, I was the Educational Program
Coordinator in the Women’s Center at RIT. From the
Fall 2004 to Fall 2006, I served as a Primary
Investigator for the Department of Justice/Office on
Violence Against Women Grant to Reduce Violent
Crimes Against Women on Campus Program. I share
this to add that work accomplished by the RIT team
at that time was captured in a study funded by the
U.S. Department of Justice and published in the
February 2003 “Report on Social Norms”. The report

118a
stated that work accomplished under this grant
demonstrated one of the only examples in the
literature of a sexual assault educational campaign
that successfully decreased the incidence of assaults.
4. I have participated in numerous training
programs regarding Title IX compliance, traumainformed investigation of Title IX reports, the Family
Educational Rights and Privacy Act of 1972
(“FERPA”), and related topics. These training
programs have been sponsored by the National
Association of College and University Attorneys, by
the Association of Title IX Administrators, by the U.S.
Department of Justice, and by leading Title IX
experts Gina Maisto Smith and Leslie Gomez,
partners at the law firm of Cozen O’Connor.
Consequences for Reporting Parties
5. I am deeply concerned that being requited to
release the names of Responding Parties to the news
media will compromise the University’s ability to
effectively address reports of sexual violence and will
negatively affect the safety and well-being of
Reporting Parties.
6. Some of my earliest memories when I first
joined the University are of meeting Reporting
Parties whose immediate concerns centered around
confidentiality. Whether The Daily Tar Heel would
find out about their report was a specific concern for
many. At that time, the University was the subject of
news reports about complaints that had been filed
against the University with the U.S. Department of

119a
Education’s Office for Civil Rights. I had to talk with
Reporting Parties about that and build their trust.
Sometimes it took several meetings before they would
share any real information about what had happened
to them. And some of them never shared this
information. Students have become more willing to
disclose information about sexual assault to me over
the years. But of late, I have observed that students
are once again concerned about media attention in
response to a recent, very prominent incident of
alleged sexual assault.
7. The concern about the potential for media
attention is compounded by the inaccurate
information that is sometimes conveyed by news
reports regarding Title IX. For example, The Daily
Tar Heel published an article about responsible
employees at the University, and this article
contained misinformation about the obligations of
those employees. The headline of this article was
“Mandatory
Reporting”
and conveyed false
information about what responsible employees must
do when they receive a report of sexual assault. Many
University Title IX officials contributed to that article
and tried to dispel the notion that responsible
employees engage in rote mandatory reporting. The
Daily Tar Heel, however, ignored the distinctions I
and others made between the expectations of
responsible employees and the concept of mandatory
reporting.
8. As a result of this false information, I
encountered a number of Reporting Parties who did

120a
not understand the role of responsible employees and
who did not know who they could entrust with their
stories. The article evoked a lot of distrust. When
students who are informed about their need for safety
hear things that differ from the information I share
with them, they question my honesty and the
integrity of the University’s Title IX process. This
cycle repeats every time a news report contains
misinformation that contradicts what I have
previously shared with them. Students then come
back to check what I have previously stated. As a
result, I spend a lot of time doing damage control.
9. I firmly believe that Reporting Parties will feel
exposed if the University were to disclose the names
of Responding Parties. They will feel that their story
is being hijacked by other people. Reporting Parties
even become nervous about the aggregate, statistical
data the University must disclose in accordance with
the Jeanne Clery Disclosure of Campus Security
Policy and Campus Crime Statistics Act (“Clery Act”)
and the annual report described in the Policy on
Prohibited Discrimination, Harassment and Related
Misconduct (“Policy”).
10.
When I meet with Reporting Parties, it is
my practice to tell them up front about who I am, the
information I share, and who I share it with. My
practice is also to tell them that I report nonidentifiable information about incidents of sexual
violence (e.g., when the incident occurred, where the
incident occurred), and they often become very
nervous. Some refuse to continue the conversation

121a
despite the fact that the only information I share for
Clery Act compliance purposes contains no
identifiable information, and the only person I tell is
with the UNC Police (formerly the University’s
Department of Public Safety).
11.
Reporting Parties want to control when and
how their information is shared. If you take that from
them, it becomes uncomfortable and may even
perpetuate their sense of feeling unsafe. Despite my
assurance that when I share very general information
with UNC Police, UNC Police will never know who
they are and will certainly never contact them to
follow up about their report, I would estimate that
about 20 to 25 percent of the Reporting Parties I talk
to immediately start editing their stories or end our
conversation altogether when they learn that I have
to share minimal de-identified information for Clery
purposes.
12.
Some Reporting Parties do not want to see
the Responding Party punished in any way. Instead,
some Reporting Parties come forward to request that
I help educate Responding Parties and assist them in
understanding the consequences of their actions. If
appropriate, our office can move forward with an
educational intervention for the Responding Party.
For the Reporting Parties that do not request a formal
investigation, I believe that a University practice of
releasing the names of Responding Parties would
discourage them from contacting me and from
disclosing an assault.

122a
13.
Students may share their story if they want
to do so. There is nothing stopping a Reporting Party
from publicly releasing information about an assault
they experienced, including the name of the alleged
perpetrator. But this is entirely different than the
University sharing that same information. Reporting
Parties want to have the ability to disclose what they
want, when they want, with whom they want. If the
University were required to disclose publicly
information about a report, the Reporting Party may
be put into a position where they have to face the
public’s scrutiny of their report. Which, in the end,
may only serve to revictimize the Reporting Party.
14.
Releasing the names of alleged perpetrators
would empower Responding Parties to disclose
information about Reporting Parties—including
those
who
desperately
seek
privacy
and
confidentiality. If I name an offender publicly, what
would keep the offender from mentioning the name of
the Reporting Party? I worry about the scenario
where a media outlet calls a Responding Party, and
the Responding Party names the Reporting Party and
calls them a liar. The first time that happens, it will
be so destructive to the persons involved and to our
work.
15.
In domestic violence situations in
particular, disclosing the name of an offender can be
dangerous for the Reporting Party. The desire for
revenge becomes a significant safety concern.
16.
More generally, releasing the names of
Responding Parties will almost certainly have a

123a
chilling effect on our process. Any perceived risk of
exposure will chill reporting.
17.
As a result of this chilling effect, I am
concerned that if Reporting Parties do not come
forward, we will lose the opportunity to provide them
with critical support services and resources. We have
a number of accommodations, protective measures,
and supports that we can offer to Reporting Parties,
both on campus and within the community. We can
coordinate medical attention, counseling services,
assistance with academic adjustments, and protective
measures to assure their safety, among others. In
fact, these are the vast majority of services that we do
provide. If we do not have the chance to even meet
these Reporting Parties, we will lose the opportunity
to help them.
18.
The consequences of students failing to
report a sexual assault are serious. I recall a student
who did not report her sexual assault and, as a result,
did not access medical services or counseling. She
ended up with a sexually-transmitted infection that
damaged her reproductive system. She may now have
difficulty getting pregnant. With timely ·medical,
treatment, she could have obtained treatment for her
condition.
19.
I am also aware of a number of situations in
which Reporting Parties did not come forward and
ended up failing courses or dropping out of school.
20.
I have encountered Reporting Parties who
did not share information about an assault who went

124a
on to suffer serious psychological difficulties,
including but not limited to posttraumatic stress
disorder, anxiety, and depression.
21.
I am also aware of some Reporting Parties
did not tell us about their assaults and who instead
engaged in risky coping behaviors, including alcohol
and drug abuse.
Consequences for Responding Parties
22.
In addition to gravely affecting Reporting
Parties, there is a legitimate concern as to what would
happen to Responding Parties in the event that we
publicly expose their identities. Based on my
experience and how people react to an individual
being accused to sexual misconduct, releasing the
names of responsible parties would likely give rise to
a witch hunt. In one of the few cases in which the
identity of a Responding Party was known to our
campus community, that student became terrified to
go to class.
23.
The mob mentality, the desire for vigilante
justice is a risk for Responding Parties. The people
who are accused and even found responsible have the
right to be safe, and I do not see that happening when
they are known publicly. They become ostracized.
24.
I understand that one of the reasons the
news media is seeking information about the
identities of Responding Parties is because they want
to hold the University accountable for assuring the
safety of our campus community. But just because a

125a
Responding Party’s behavior has violated our Policy
does not automatically make that individual an
ongoing threat.
25.
Some Responding Parties acknowledge and
accept what they have done. We are an educational
institution. Our response is not incarceration or loss
of liberty. Our response is informed by our
educational
mission—to
provide
educational
opportunities and a safe space to learn in, including
for the Responding Party in appropriate cases. We are
a community that believes in responsibility, but also
redemption wherever possible. What I saw more
times than not when I previously worked with
offenders is that they wanted to learn and to
understand what they did wrong. The campus and the
community’s desire for retribution can interfere with
that learning process.
26.
When the University believes there is
ongoing threat to our campus community, the
University takes immediate action. The University
has an assessment team, the Emergency Evaluation
and Action Committee (EEAC), that is comprised of
individuals from UNC Police, the Office of the Dean
of Students, Title IX, and others. The team will gather
information from other campus offices in order to
make a careful and thorough assessment of the facts.
These assessments may ultimately lead to interim
suspensions of Responding Parties, trespass orders
from campus, and timely warnings that are
distributed to all members of our campus community.

126a
27.
We care deeply about our students, and our
first priority is always their well-being.
Consequences for Witnesses
28.
Just as Reporting Parties fear that their
names will end up in the newspaper, so to do
witnesses who want to be supportive and helpful but
who fear retaliation based upon the possibility of
public disclosure. My experience is that witnesses
fear not only that they will be named publicly, but
that people in their communities will be able to figure
out that they have participated in a report.
29.
In the short time since this lawsuit was
filed, I have separately met with two students who
have expressed concerns about serving as a witness in
Title IX investigations. They both expressed
reluctance to participate in the Title IX investigation
process specifically because of the risk that their
names would be made available publicly.
Conclusion
30.
Based on my experience in dealing with
victims of sexual misconduct, I firmly believe that
releasing the names of Responding Parties to the
news media would have dire consequences for
Reporting Parties. Too many survivors already live in
the shadows. I am certain that the prospect of the
University sharing the names of their perpetrators
could result in their re-traumatization and would
drive them further underground. In addition, my
experience informs me that disclosing the names of

127a
Responding Parties would jeopardize their own
safety. I would urge the news media to reconsider
their request. I believe there are other ways for the
media to learn about our Title IX process and about
how we work every day to keep our campus safe.
Further affiant sayeth not.
[SIGNATURE PAGE FOLLOWS]
This the 3rd of April, 2017.
/s/ Ew Quimbaya-Winship
Ew Quimbaya-Winship
Signed and sworn before me this
the 3rd day of April, 2017. [NOTARY SEAL]
/s/ Justin A. Moody
Notary Public
My Commission Expires: 12-13-2020

128a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
STATE OF NORTH CAROLINA
COUNTY OF WAKE
16-CVS-14300
DTH
MEDIA
CORPORATION;
CAPITOL
BROADCASTING
COMPANY,
INC.;
THE
CHARLOTTE
OBSERVER
PUBLISHING
COMPANY; THE DURHAM HERALD COMPANY;
Plaintiffs,
v.
CAROL L. FOLT, in her official capacity as
Chancellor of The University of North Carolina at
Chapel Hill, and GAVIN YOUNG, in his official
capacity as Senior Director of Public Records for The
University of North Carolina at Chapel Hill,
Defendants.
AFFIDAVIT OF FELICIA WASHINGTON
Felicia Washington, first being duly sworn, hereby
deposes and says:
Background
1. I am more than eighteen (18) years of age and
competent to give testimony in this matter.
2. I am the Vice Chancellor for Workforce
Strategy, Equity and Engagement at the University
of North Carolina at Chapel Hill and have served in

129a
that role since 2014. Prior to serving as a Vice
Chancellor, I was a member of the University’s Board
of Trustees from 2010 to 2014. Prior to my current
position, I was also a partner at K&L Gates, ILP,
focusing on employment and business immigration
law. I was with K&L Gates, LLP and Kennedy
Covington from 1990 through December 2013. ·I
earned a Bachelor’s degree in economics from UNCChapel Hill in 1987, and a Juris Doctor from the
University of Virginia School of Law in 1990.
3. As Vice Chancellor for Workforce Strategy,
Equity and Engagement, I am responsible for
overseeing the Division of Workforce Strategy, Equity
and Engagement (“DWSEE”). I am responsible for the
administration of, and compliance with, federal and
state laws and UNC-system and UNC-Chapel Hill
policies regarding human resources management,
equal opportunity, and prohibited harassment and
discrimination.
4. DWSEE consists of three units: the Office of
Human Resources; the Equal Opportunity and
Compliance Office (“EOC”); and the Office of Diversity
and Multicultural Affairs. These three offices work to
implement strategies for supporting and enriching
Carolina’s workforce, complying with BO/ADA laws,
and enhancing inclusiveness across all parts of our
campus.
5. One of these units, the BOC Office, has
primary responsibility for developing, implementing,
and executing policies and activities that arise from
the University’s commitment to foster equitable

130a
treatment to employees and students and its
obligation to comply with employment laws, the
Americans with Disabilities Act, Title IX, and other
related state and federal laws and regulations.
6. The BOC Office oversees the implementation of
the University’s Policy on Prohibited Discrimination,
Harassment and Related Misconduct, Including
Sexual and Gender-Based Harassment, Sexual
Violence, Interpersonal Violence and Stalking.
7. Becci Menghini, Senior Associate Vice
Chancellor for the Division of Workforce Strategy,
oversees the BOC Office and serves as my chief of
staff. Katie Nolan, the University’s Interim Title IX
Compliance Coordinator, reports to Menghini, and
has a dotted-line reporting relationship to me.
8. I am aware that the University has accepted
substantial federal funding and that this funding is
critically important to the University.
9. I have substantial expertise in and have
participated in numerous training programs
regarding Title IX compliance and related topics.
Additionally, I understand the obligations imposed by
the Family Educational Rights and Privacy Act of
1972 (“FERPA”) and have worked to help the
University comply with these obligations.
The University’s Title IX Process
10.
The University has developed a thorough,
careful, and detailed policy and related procedures to

131a
meet its Title IX responsibilities related to sexual
violence and sexual and gender-based harassment.
Exhibit 3 is the University’s Policy on Prohibited
Discrimination,
Harassment,
and
Related
Misconduct (“University Policy”), and Exhibit 4 is
related procedures that are utilized depending on the
status of the parties (“Procedures”).
11.
The University’s implementation of the
University Policy and Procedures is important and
complex, and the University takes its responsibilities
very seriously.
12.
In the University’s Process, parties are
referred to as Reporting Parties and Responding
Parties.
13.
The University Policy and Procedures
describe support and resources available to Reporting
Parties and Responding Parties; interim protective
measures to address the safety concerns of Reporting
Parties; processes for investigation and adjudication;
and potential sanctions and remedies.
14.
Title IX requires the University to have a
process that is completely separate from any criminal
proceeding; however, individuals who report that they
have experienced sexual assault may also separately
pursue criminal or civil proceedings. The Violence
Against Women Reauthorization Act (VAWA)
requires the University to expressly provide
Reporting Parties (a) the option “to” report to and
seek assistance from law enforcement and (b) the
option “not to” report and seek assistance from law

132a
enforcement, due to the public nature of the law
enforcement process.
15.
Though the application of the University
Policy, the University determines whether the
University Policy was violated, not whether a crime
has occurred.
16.
The primary goals of the University Policy
are to provide a safe and equitable environment for
all members of the Carolina community. In keeping
with these goals, the University seeks to educate,
rehabilitate, and hold responsible students who are
found to have violated the University Policy.
17.
There are multiple paths to resolution
available to individuals affected by the types of
conduct prohibited under the University Policy, and
only some Reporting Parties choose to proceed to an
investigation and, subsequently, a hearing before a
University Hearing Panel. Exhibit 4A contains a
detailed chart that sets forth various paths to
resolution. (See Ex. 4A at 11)
18.
Regardless of the manner of resolution, a
Responding Party who is a student may choose to
accept responsibility for a University Policy violation
at any stage in the process, and many Responding
Parties do so.
19.
The standard for a finding a student
“responsible” under the University Policy is a
“preponderance of the evidence” standard, as is
required by the U.S. Department of Education’s Office

133a
of Civil Rights, as compared to the “beyond a
reasonable doubt” standard used in criminal
proceedings. Thus, cases where the evidence tips
50.1% in favor of a finding of responsibility and 49.9%
against will result in a finding of responsibility under
University Policy.
20.
In cases in which parties are found
responsible and sanctions are imposed by the
University, the University may impose a wide range
of sanctions, from training and education on the one
hand to suspension from the University or expulsion
in more egregious cases. Under the UNC Policy
Manual, expulsion means expelled from every
university in the UNC System. UNC Policy Manual
§ 700.4.3[G](3).
The University’s Title IX Cases
21.
The University addresses a range of Title IX
reports that fall within a wide spectrum. In most
cases that are reported to the University, the
Reporting and Responding Parties know each other,
and, in many cases, they have dated or been in a
relationship. The cases typically do not involve
stranger rape.
22.
Many of the encounters at issue involve
alcohol consumption by one or both parties.
23.
In many cases, the only witnesses to the
critical portion of the encounter are the Reporting and
Responding Parties, and their accounts and memories
may differ.

134a
24.
For all of these reasons, many cases that are
reported to us raise difficult questions of capacity,
consent, and credibility.
25.
Accordingly, and in light of our application
of the preponderance standard, which, again, is the
standard required by the U.S. Department of
Education’s Office of Civil Rights, the University is
called upon to resolve many close and difficult cases.
The University’s Commitment to
Confidentiality
26.
The University is committed to protecting
confidentiality and privacy, to the greatest extent
possible, in the Title IX process. Privacy is not only
mandated by federal law, it is essential to the
effectiveness of our work.
27.
Under FERPA, the University has
discretion to disclose the final results of disciplinary
proceedings conducted by the University against a
student who is an alleged perpetrator of any crime of
violence, or a nonforcible sex offense, if the result
constituted a violation of the University’s Policy. In
this context, final result means the name of the
student, the violation committed, and the sanction
imposed. The University has determined that
releasing this information would be highly
detrimental to the University’s Title IX process and
would not be in the best interest of the University or
its students. Therefore, the University generally
maintains the privacy of this information.

135a
28.
The University’s decision to maintain
confidentiality has been based on significant and
weighty considerations about the potential impact on
the University’s Title IX process and involved parties.
29.
In many cases, the Reporting Party desires
confidentiality and does not want their own name, the
responsible student’s name, and/or other details to be
released to the public.
30.
The privacy of campus proceedings is a
reason many Reporting Parties opt to pursue their
options on campus rather than through criminal
proceedings.
31.
Because Reporting Parties can frequently
be linked to responsible students (particularly in the
age of google and social media), Reporting Parties
may reasonably fear that they will be identified if the
responsible student’s name becomes public. Releasing
names of responsible parties also may prompt those
parties to publicly name the Reporting Party in
response to press inquiries.
32.
Witnesses, too, may be deterred from
participating in the process if the press receives Title
IX files and results and investigates and/or reports on
them.
33.
In addition, both Reporting and Responding
Parties who are named publicly can be subject to
harassment, retaliation, and retribution—effectively
imposing a punishment beyond the University’s
sanction, potentially threatening the student’s safety

136a
and hindering the University’s ability to educate and
rehabilitate students through the Title IX process.
34.
Moreover, requiring the release of final
results, including naming the responsible student,
would strongly discourage accused students from
accepting
responsibility
without
contesting
allegations—a highly desired outcome that avoids
unnecessary re-traumatization and decreases the
length of the adjudication process.
35.
For all of these reasons, the University has
determined that public release of the name of the
responsible student generally does not serve the
University or its students’ best interests.
36.
University employees are subject to the
provisions of the State Human Resources Act related
to the privacy of personnel records. Information that
is deemed public under the Act is available for public
inspection, but all other personnel records are
confidentially maintained.
Protecting The University Community
37.
The University has determined that
releasing the final results of individual Title IX
proceedings, including the responsible student’s
name, generally is not necessary for safety reasons.
The University has other ways to protect the
University community and the public at large.
38.
Under University Policy, the University
provides interim protective measures to include no

137a
trespass orders. In addition, cases involving violence
are referred to the Emergency Evaluation and Action
Committee (“EEAC”) to determine whether the
Responding Party poses a serious threat of disruption
to the academic process or a continuing danger to
members of the University community or University
property. Exhibit 5 is a true and correct copy of the
University’s EEAC policy. The EEAC committee has
broad authority to consider relevant safety concerns
and take responsive measures in appropriate cases, to
include interim suspensions.
39.
The University takes immediate action
when there is an ongoing threat to our campus
community. The Jeanne Clery Disclosure of Campus
Security and Campus Crime Statistics Act, 20 U.S.C.
§ 1092(t) (“Clery Act”), requires the University to
warn the campus community of a significant
emergency or dangerous situation involving an
immediate threat to the health or safety of students
or staff occurring on the campus, and the University
follows this requirement.
40.
In cases in which an investigation or
adjudication is pending or where there is an active
sanction of probation, suspension or expulsion for
violating University Policy, that is noted on the
student’s transcript. If a student withdraws prior to
resolution, that is noted on the transcript as well.

138a
Accountability Mechanisms
41.
Many mechanisms exist for accountability,
which allow the parties and the public to obtain
information about the Title IX process.
42.
It is important to understand that private
attorneys are involved in many of the matters that
proceed to investigation and hearing, which provides
a direct element of accountability to the parties.
43.
Further, the University Policy provides for
a comprehensive annual review of the University’s
Title IX process with involvement of multiple
constituents, so that the process is continuously
assessed, evaluated, and improved. As part of the
annual review, an annual report is made publicly
available. The report contains detailed, aggregated
data about the cases we see under the University
Policy. The annual report contains information about
reports of misconduct under the Policy, as well as
specific initiatives the University took during the
2014-15 academic year to strengthen its Policy,
procedures, trainings, outreach, and resources.
Exhibit 6 is a true and correct copy of our 2014-15
Annual Report.
44.
The University also complies with the
reporting requirements of the Clery Act, including
releasing an Annual Security Report. That annual
report includes crime, arrest and disciplinary referral
statistics compiled from information reported to UNC
Police (formerly the University’s Department of
Public Safety), UNC Health Care Police, the

139a
Department of Housing and Residential Education,
the Office of the Dean of Students, the Title IX and
Equal Opportunity and Compliance Office, the Office
of Student Conduct, other University units, and law
enforcement agencies in the area. Exhibit 7 is a true
and correct copy of relevant excerpts from the
University’s most recent Annual Security report.
45.
In addition, in April 2015, the University
participated in the Association of American
Universities (“AAU”) Campus Climate Survey on
Sexual Assault and Sexual Misconduct. The AAU
sought to gain a detailed understanding of the general
campus climate regarding sexual assault, sexual
harassment, intimate partner violence, and stalking
and to help collect institution-specific data to guide
prevention and support efforts. The survey captured
data that may or may not have been reported to
University officials.
46.
In September 2015, AAU released
aggregate survey data. The University made UNCChapel Hill specific information publicly available.
Exhibit 8 is a true and correct copy of infographics
capturing preliminary takeaways from the survey
data. In addition, the more detailed UNC-Chapel Hill
report and data tables can be accessed online at
http://safe.unc.edu/create-change/aau-survey/.
47.
Finally, we have had students who were
dissatisfied with the Title IX process or its results
exercise their rights to file complaints with the Office
of Civil Rights or civil lawsuits against the
University.

140a
Plaintiffs’ Requests
48.
Plaintiffs’ request for records and for the
University to name names of responsible students has
the potential to derail the University’s hard work in
developing effective Title IX policies and procedures,
as well as the hard-fought progress we have made in
building trust with members of the campus
community who experience sexual assault and
related violations.
49.
Although we have made important progress
in providing improved mechanisms for reporting and
more resources for students, with a significant
increase in the number of reports requiring formal
investigations for nearly all forms of misconduct
under the University Policy, we know that there are
still many incidents that do not get reported.
50.
The trust we have built, and our
commitment to privacy, is essential to encouraging
students to come forward as Reporting Parties. But
that trust is fragile and could be destroyed by one
highly publicized incident. It would invariably be
destroyed by the public naming of names. If the
process we have so carefully constructed is not
accessed, the University will be powerless to
effectively address the pressing issue of sexual
assault in our campus community.
Conclusion
51.
As discussed herein, the University has
developed very thorough and detailed policies and

141a
procedures for handling cases of sexual misconduct
and gender-based harassment under Title IX. The
University is deeply concerned that granting
Plaintiffs’ request for records would have a
devastating and irreversible impact on the
University’s efforts to address sexual assaults and
related issues in the University community.
Further affiant sayeth not.
[SIGNATURE PAGE FOLLOWS]
This the 4th of April, 2017.
/s/ Felicia Washington
Felicia Washington
Signed and sworn before me this
the 4th day of April, 2017. [NOTARY SEAL]
/s/ Justin A. Moody
Notary Public
My Commission Expires: 12-13-2020

